<html>
<title> - BUILD BACK BETTER: INVESTING IN EQUITABLE AND AFFORDABLE HOUSING INFRASTRUCTURE</title>
<body><pre>[House Hearing, 117 Congress]
[From the U.S. Government Publishing Office]


                      BUILD BACK BETTER: INVESTING
                      IN EQUITABLE AND AFFORDABLE
                         HOUSING INFRASTRUCTURE

=======================================================================

                            VIRTUAL HEARING

                               BEFORE THE

                    COMMITTEE ON FINANCIAL SERVICES

                     U.S. HOUSE OF REPRESENTATIVES

                    ONE HUNDRED SEVENTEENTH CONGRESS

                             FIRST SESSION

                               __________

                             APRIL 14, 2021

                               __________

       Printed for the use of the Committee on Financial Services

                           Serial No. 117-15
                           
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT]

                               __________
                               

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
44-442 PDF                  WASHINGTON : 2021                     
          
--------------------------------------------------------------------------------------



                 HOUSE COMMITTEE ON FINANCIAL SERVICES

                 MAXINE WATERS, California, Chairwoman

CAROLYN B. MALONEY, New York         PATRICK McHENRY, North Carolina, 
NYDIA M. VELAZQUEZ, New York             Ranking Member
BRAD SHERMAN, California             FRANK D. LUCAS, Oklahoma
GREGORY W. MEEKS, New York           BILL POSEY, Florida
DAVID SCOTT, Georgia                 BLAINE LUETKEMEYER, Missouri
AL GREEN, Texas                      BILL HUIZENGA, Michigan
EMANUEL CLEAVER, Missouri            STEVE STIVERS, Ohio
ED PERLMUTTER, Colorado              ANN WAGNER, Missouri
JIM A. HIMES, Connecticut            ANDY BARR, Kentucky
BILL FOSTER, Illinois                ROGER WILLIAMS, Texas
JOYCE BEATTY, Ohio                   FRENCH HILL, Arkansas
JUAN VARGAS, California              TOM EMMER, Minnesota
JOSH GOTTHEIMER, New Jersey          LEE M. ZELDIN, New York
VICENTE GONZALEZ, Texas              BARRY LOUDERMILK, Georgia
AL LAWSON, Florida                   ALEXANDER X. MOONEY, West Virginia
MICHAEL SAN NICOLAS, Guam            WARREN DAVIDSON, Ohio
CINDY AXNE, Iowa                     TED BUDD, North Carolina
SEAN CASTEN, Illinois                DAVID KUSTOFF, Tennessee
AYANNA PRESSLEY, Massachusetts       TREY HOLLINGSWORTH, Indiana
RITCHIE TORRES, New York             ANTHONY GONZALEZ, Ohio
STEPHEN F. LYNCH, Massachusetts      JOHN ROSE, Tennessee
ALMA ADAMS, North Carolina           BRYAN STEIL, Wisconsin
RASHIDA TLAIB, Michigan              LANCE GOODEN, Texas
MADELEINE DEAN, Pennsylvania         WILLIAM TIMMONS, South Carolina
ALEXANDRIA OCASIO-CORTEZ, New York   VAN TAYLOR, Texas
JESUS ``CHUY'' GARCIA, Illinois
SYLVIA GARCIA, Texas
NIKEMA WILLIAMS, Georgia
JAKE AUCHINCLOSS, Massachusetts

                   Charla Ouertatani, Staff Director
                           
                           C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on:
    April 14, 2021...............................................     1
Appendix:
    April 14, 2021...............................................    71

                               WITNESSES
                       Wednesday, April 14, 2021

McAfee, Michael, President and CEO, PolicyLink...................     6
Omarova, Saule T., Beth and Marc Goldberg Professor of Law, 
  Cornell University.............................................     9
Riedl, Brian, Senior Fellow, Manhattan Institute for Policy 
  Research.......................................................    11
Waggoner, Jacqueline, President, Solutions Division, Enterprise 
  Community Partners, Inc........................................     8
Yentel, Diane, President and CEO, National Low Income Housing 
  Coalition......................................................     5

                                APPENDIX

Prepared statements:
    McAfee, Michael..............................................    72
    Omarova, Saule T.............................................    82
    Riedl, Brian.................................................   129
    Waggoner, Jacqueline.........................................   140
    Yentel, Diane................................................   159

              Additional Material Submitted for the Record

Waters, Hon. Maxine:
    Written statement of the Action Center on Race and the 
      Economy (ACRE).............................................   179
    Written statement of Principal Chief David W. Hill, Muscogee 
      (Creek) Nation.............................................   183
    Written statement of CoreLogic...............................   186
    Written statement of the Center for Responsible Lending (CRL)   188
    Written statement of the Manufactured Housing Institute (MHI)   192
    Written statement of the National Fair Housing Alliance 
      (NFHA).....................................................   202
    Written statement of the National Housing Resource Center 
      (NHRC).....................................................   204
    Written statement of ROC USA.................................   206
    Written statement of the Structured Finance Association (SFA)   208
    Written statement of the Sierra Club.........................   215
Axne, Hon. Cindy:
    Written statement of the Manufactured Housing Institute (MHI)   192
Taylor, Hon. Van:
    Goldman Sachs, Top of Mind, ``Reflation Risk''...............   240

 
                      BUILD BACK BETTER: INVESTING
                      IN EQUITABLE AND AFFORDABLE
                         HOUSING INFRASTRUCTURE

                              ----------                              


                       Wednesday, April 14, 2021

             U.S. House of Representatives,
                   Committee on Financial Services,
                                                   Washington, D.C.
    The committee met, pursuant to notice, at 10:03 a.m. via 
Webex, Hon. Maxine Waters [chairwoman of the committee] 
presiding.
    Members present: Representatives Waters, Velazquez, 
Sherman, Meeks, Scott, Green, Cleaver, Perlmutter, Himes, 
Foster, Beatty, Vargas, Gottheimer, Lawson, Axne, Casten, 
Pressley, Torres, Lynch, Adams, Tlaib, Dean, Ocasio-Cortez, 
Garcia of Illinois, Garcia of Texas, Williams of Georgia, 
Auchincloss; McHenry, Wagner, Lucas, Posey, Luetkemeyer, 
Huizenga, Stivers, Barr, Tipton, Williams of Texas, Hill, 
Emmer, Zeldin, Loudermilk, Mooney, Davidson, Budd, Kustoff, 
Hollingsworth, Gonzalez of Ohio, Rose, Steil, Gooden, Timmons, 
and Taylor.
    Chairwoman Waters. The Financial Services Committee will 
come to order. Without objection, the Chair is authorized to 
declare a recess of the committee at any time.
    As a reminder, I ask all Members to keep themselves muted 
when they are not being recognized by the Chair. The staff has 
been instructed not to mute Members except where a Member is 
not being recognized by the Chair and there is inadvertent 
background noise.
    Members are also reminded that they may only participate in 
one remote proceeding at a time. If you are participating 
today, please keep your camera on. And if you choose to attend 
a different remote proceeding, please turn your camera off.
    Today's hearing is entitled, ``Build Back Better: Investing 
in Equitable and Affordable Housing Infrastructure.'' I now 
recognize myself for 4 minutes to give an opening statement.
    Today, the committee will be focusing on the need for major 
investments in equitable and affordable housing infrastructure. 
Last month, Congress passed the American Rescue Plan Act to 
provide $1.9 trillion in critical pandemic relief, including 
for families facing eviction or foreclosure through no fault of 
their own. Now, we will address the shameful homelessness 
crisis and pressing need for new affordable housing production.
    I am pleased that President Biden has, as part of his 
American Jobs Plan, recognized that housing is a critical part 
of our nation's infrastructure. The plan includes $213 billion 
for affordable housing. President Biden's plan will stimulate 
the economy, create jobs, and benefit communities across the 
country.
    In 2019, I introduced my bill, the Housing is 
Infrastructure Act, and I have convened a number of hearings to 
make it clear that as the country experiences an affordable 
housing crisis, housing must be a major component of any 
infrastructure package.
    Last year, the Housing is Infrastructure Act passed the 
House as part of the House Democrats' infrastructure bill, the 
Moving Forward Act. The newest version of my bill provides over 
$237 billion in new funding, including $70 billion to address 
the capital needs of our nation's public housing, and $35 
billion for the HOME program to provide capital and rental 
assistance for affordable housing, as well as $45 billion for 
the National Housing Trust Fund, and $12 billion for the 
Capital Magnet Fund, which together will leverage private 
sector investment to create new affordable housing for our 
country's poorest households, including in rural and Tribal 
areas. My bill also provides over $6 billion in grants to 
eliminate exclusionary local zoning barriers that have impeded 
construction of affordable housing.
    In keeping with the spirit of the landmark civil rights 
legislation, the Fair Housing Act, we must ensure that this 
generational investment in infrastructure is distributed 
equitably. My bill includes $10 billion for targeted down-
payment assistance to help mortgage-ready renters transition 
into being homeowners, as well as $5 billion for fair housing 
enforcement.
    We will also discuss legislation to provide $27 billion for 
the creation of a new national investment authority that 
supports long-term infrastructure projects and accelerates our 
transition to a clean energy economy. This committee has a key 
role to play in this agency's design, and will be closely 
coordinating with the Biden Administration.
    As we explore new ideas to bolster investments in our 
infrastructure, we must also ensure that we are prioritizing 
climate resilience: 2020 was the most active hurricane season 
on record, and the growing cost of climate disasters serves as 
a reminder of the need to ensure long-term reauthorization of 
the National Flood Insurance Program (NFIP), that strengthens 
the Program and preserves its affordability. It is exciting 
that after years of Federal underinvestment in housing, we 
really have momentum for serious, equitable investments in our 
housing system.
    So, I look forward to discussing these measures in advance 
of the infrastructure package.
    Thank you. I now recognize the ranking member of the 
committee, the gentleman from North Carolina, Mr. McHenry, for 
4 minutes to give an opening statement.
    Mr. McHenry. Thank you, Madam Chairwoman, and look, there 
has been a lot of discussion about what the actual so-called 
Biden infrastructure plan is, but it may be easier for us to 
start with what it is not. First, it is not an infrastructure 
package. In fact, less than 6 percent of the funding of this 
package would go to roads, bridges, and highways, a little more 
than that if you add in high-speed internet.
    It is not a jobs plan. The Administration's claims that 
this proposal is going to create 19 million new jobs has 
already been debunked. The plan is not bipartisan. Even though 
House Democrats hold the slimmest majority in modern history, 
they have decided to go all in and go all alone once again. It 
didn't have to be this way.
    Let me just give you an example: We passed long-term 
bipartisan funding for the National Flood Insurance Program, 
and it was reported unanimously out of committee, just 2 years 
ago. Now, emboldened by their so-called one-party rule, 
Democrats have tossed it aside for the bill we are considering 
today, which caters to some stakeholders and makes the program 
far less sustainable.
    Now, I don't want to do the Democrats' jobs for them, but 
if this bill doesn't need bipartisan support, since you are 
going to try to sneak this into the so-called infrastructure 
plan, why wouldn't you address climate change in the National 
Flood Insurance Program? It is a serious question, and frankly, 
I am shocked to have to ask it. Why does this partisan National 
Flood Insurance Program bill do nothing to address climate 
change and the risks associated with weather-related events, 
even though at the very core of what the NFIP insures, it is 
focused on the impact of climate change?
    I will leave that for you all to discuss amongst 
yourselves.
    The Biden plan is not about economic growth and prosperity. 
Democrats do not want to admit the economy is thriving, because 
if they admit that, it might be harder to pass the next multi-
trillion-dollar spending bill. They do not want to admit that 
there are job openings across the country that are not being 
filled. In my district, there are massive labor shortages. For 
example, a local hotel operator, who pays a living wage with 
benefits and typically employs 140 to 160 people, has 50 to 60 
openings right now. Or if you look at a forger right now who is 
helping make bricks for the housing industry, he is paying $20 
an hour and he cannot keep up because of labor shortages.
    These things are happening across the country, and I know 
that is conforming with the narrative by some of my Democratic 
colleagues in Washington.
    But finally, the Biden plan is not a housing bill. More 
funding will not solve the problems associated with housing 
shortages or our homelessness problems in this country. We need 
to rethink how we provide affordable, suitable housing for all 
Americans.
    So what, in fact, is the Biden plan? Frankly, it is like 
the so-called COVID relief plan. It is a liberal wish list that 
Hill Democrats have been carrying around for a long time, and 
the attempt is to fundamentally restructure the role of the 
Federal Government, to expand it beyond its traditional role 
that we have seen over the last 50 years. No longer will the 
private sector, or small businesses, for that matter, be the 
engine of job creation. They want it to be the Federal 
Government. You do not have to read The New York Times opinion 
page to see that. You can just see it in the discussions on 
Capitol Hill.
    And when it comes down to is, this is a plan to eliminate 
jobs in the private sector and then have the Federal Government 
spend trillions of dollars to recreate them. And this is not 
the right approach. Our time would be better spent today going 
out in our neighborhoods and filling potholes in the streets, 
because that is actual infrastructure.
    I yield back.
    Chairwoman Waters. Thank you, Ranking Member McHenry. I now 
recognize the gentleman from Missouri, Mr. Cleaver, who is also 
the Chair of our Subcommittee on Housing, Community 
Development, and Insurance, for 1 minute to talk about this 
jobs bill.
    Mr. Cleaver. Thank you, Madam Chairwoman, and I thank you 
for holding this hearing and for your unbending leadership in 
highlighting housing as not only critical but as an 
indispensable and fundamental component of this nation's 
infrastructure.
    I am pleased that the President's American Jobs Plan 
includes a broad framework for investments in affordable 
housing, and I look forward to today's discussion on 
implementing the components of the American Jobs Plan under the 
committee's jurisdiction.
    Housing, and I speak experientially when I say this, 
stabilizes families and, in turn, fortifies neighborhoods, 
cities, regions, and the country as a whole. I am eager to 
continue to discuss the critical role of housing as part of the 
infrastructure as well as the extensive return on investment 
that adequate funding through this committee would provide. We 
must fund housing in proportion to its importance to the future 
of our nation.
    Thank you, Madam Chairwoman.
    Chairwoman Waters. Thank you. I now recognize the ranking 
member of the Subcommittee on Housing, Community Development, 
and Insurance, the gentleman from Ohio, Mr. Stivers, for 1 
minute.
    Mr. Stivers. Thank you, Madam Chairwoman. I would like to 
address a couple of points on this. First of all, on the 
housing piece, is it infrastructure? And I will give you the 
benefit of the doubt. It is a hard asset, so we can say that it 
is infrastructure. But the second question is, is this the 
right way to go about it, and I think the answer is no on that. 
This proposal does not do anything to incentivize new housing 
units. This proposal is a one-size-fits-all government spending 
program that ignores programs like the Rental Assistance 
Demonstration (RAD) Program, Section 8, and Moving to Work, 
that are tools that should be in the toolkits of all of our 
local communities.
    And finally, the final problem with this is that it is not 
fair to our rural communities: 21 percent of Americans live in 
rural America, and only a tiny, tiny portion of this money is 
going to rural America. We have been without a policy for rural 
housing for a long time. It is time we developed one. We are 
working on one, and I would urge the Chair and the members of 
the committee to work with us.
    I yield back.
    Chairwoman Waters. Thank you very much.
    I now want to welcome today's distinguished witnesses to 
the committee: Ms. Diane Yentel, the president and chief 
executive officer of the National Low Income Housing Coalition; 
Mr. Michael McAfee, the president and chief executive officer 
of PolicyLink; Ms. Jacqueline Waggoner, the president of the 
Solutions Division of Enterprise Community Partners; Professor 
Saule Omarova, the Beth and Marc Goldberg Professor of Law at 
Cornell University; and Mr. Brian Riedl, a senior fellow at the 
Manhattan Institute.
    Each of you will have 5 minutes to summarize your 
testimony. You should be able to see a timer on your screen 
that will indicate how much time you have left, and a chime 
will go off at the end of your time. I would ask you to be 
mindful of the timer and quickly wrap up your testimony if you 
hear the chime. And without objection, your written statements 
will be made a part of the record.
    Ms. Yentel, you are now recognized for 5 minutes to present 
your oral testimony.

  STATEMENT OF DIANE YENTEL, PRESIDENT AND CEO, NATIONAL LOW 
                    INCOME HOUSING COALITION

    Ms. Yentel. Thank you. Chairwoman Waters, Ranking Member 
McHenry, and members of the committee, thank you for the 
opportunity to testify today on the urgent need for investments 
in our nation's affordable housing infrastructure.
    The COVID-19 pandemic made it clear that affordable homes 
are a prerequisite for individual and public health. But 
renters and unhoused people, predominantly people of color, 
have struggled to remain safely and stably housed throughout 
the pandemic, due largely to the underlying affordable housing 
crisis that existed pre-pandemic.
    At that time, there was a shortage of nearly 7 million 
affordable and available rental homes for America's lowest-
income renters. For every 10 of the lowest-income renter 
households, there are fewer than 4 homes that are affordable 
and available to them. Without affordable options, 10 million 
very low-income households spent more than half of their 
limited incomes on rent and utilities, leaving them one 
financial shock away from missing rent and facing eviction or, 
in the worst cases, homelessness. The coronavirus and its 
economic fallout was that financial shock. They lost jobs and 
wages, had increased internet, child care, health care, and 
food expenses, and they fell behind on rent.
    The latest estimates are that 9 million renter households 
owe over $50 billion in rent and utility arrears and remain at 
high risk of losing their homes.
    In response, Congress extended the CDC eviction moratorium 
through January, and President Biden further extended it 
through June, and thanks in large part to Chairwoman Waters' 
leadership, Congress provided a total of $47 billion for 
emergency rental assistance and additional resources for 
communities to address homelessness.
    Now, as the nation recovers from the pandemic, Congress 
must turn its attention to advancing long-term solutions to 
resolve the nation's underlying housing crisis. Any 
infrastructure spending bill must preserve our nation's public 
housing infrastructure with a $70 billion investment to repair 
and build more public housing as is included in the Housing is 
Infrastructure Act. Public housing is home to nearly 2 million 
low-income residents, predominantly people of color, and 
decades of declining resources have threatened the quality and 
existence of these affordable homes.
    With limited funding, many public housing agencies are 
unable to make needed repairs, and we lose 10,000 to 15,000 
affordable apartments each year to obsolescence and decay, as 
other public housing units fall into deep disrepair. Seventy 
billion dollars is needed to repair public housing, to ensure 
that it provides safe and decent homes for current and future 
residents, and such an investment would create nearly 800,000 
new jobs, many of which would go to public housing residents or 
other low-income people in the community.
    To further expand the affordable and accessible housing 
stock, Congress should provide at least $40 billion annually to 
the National Housing Trust Fund to efficiently build, rehab, 
and operate rental housing for extremely low-income people. 
Each annual investment of $40 billion in the Housing Trust Fund 
would support the construction of almost 200,000 homes 
affordable to people with the lowest incomes while also 
creating over 250,000 jobs.
    In addition, the Federal Government should incentivize or 
require State and local governments that receive Federal 
transportation and infrastructure dollars to eliminate 
restrictive zoning rules that increase the cost of development, 
limit housing supply for all renters, and reinforce segregation 
and structural racism in housing and other systems.
    The Housing and Infrastructure Act of 2021 includes each of 
these essential investments and policy reforms, and we strongly 
support them. And we urge Congress to go further still. 
Congress should also, in an infrastructure spending bill, 
expand rental assistance to make it universally available to 
all eligible households in need. Currently, only 1 in 4 
households in need of and eligible for rental assistance 
receives any. We must also create a permanent emergency rental 
assistance program, a national housing stabilization fund to 
keep families stabilized during a crisis, and enact robust 
renter protections like right-to-counsel and expunging eviction 
records.
    This committee and Congress have a historic opportunity to 
invest in our country's affordable housing infrastructure, to 
end the housing crisis, and to advance racial equity in our 
country. Everybody at the National Low Income Housing Coalition 
looks forward to working with you on this important work, and I 
thank you again for the opportunity to testify today.
    [The prepared statement of Ms. Yentel can be found on page 
159 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Mr. McAfee, you are now recognized for 5 minutes to present 
your oral testimony.

   STATEMENT OF MICHAEL McAFEE, PRESIDENT AND CEO, POLICYLINK

    Mr. McAfee. Thank you. Thank you, Chairwoman Waters, 
Ranking Member McHenry, and members of the committee for the 
opportunity to offer testimony on the need for investments in 
America's housing and financial infrastructure. I am Dr. 
Michael McAfee, President and CEO of PolicyLink, a racial 
equity research and action institute operating nationwide with 
our network of thousands of community-based partners.
    Our North Star at PolicyLink is to bring about a world that 
promotes equity, defined as just and fair inclusion into a 
society in which all can participate, prosper, and reach their 
full potential. Centuries of racism, exclusion, and 
exploitation have over 100 million people in America, including 
55 million people of color, struggling to make ends meet, and 
is preventing generations of children from realizing their 
potential. That is 1 in 3 Americans.
    Daunte Wright's untimely death at the hands of police this 
week, just miles away from where George Floyd was killed last 
year, underscores the importance of this hearing. Both 
incidents are consequences of the same persistent, deliberate, 
and oppressive racial inequities that have also made it 
possible for our infrastructure system to divide, pollute, and 
rob wealth from communities of color.
    Fixing and investing in our infrastructure is one of the 
most important ways to tackle these challenges and ensure that 
opportunity is not random in America. And housing is at the 
heart of this, because housing is one of the biggest drivers of 
the racial wealth gap. Housing shapes the physical landscape of 
inequity, segregation, disinvestment, and exclusion.
    We have not seen the vision and resource commitment needed 
to address our intersectional infrastructure challenges since 
the Obama years, when Chairwoman Waters and other committee 
members played such a critical role in initiatives like Choice 
Neighborhoods, Promise Neighborhoods, and the Sustainable 
Communities Initiative. PolicyLink is proud to have played a 
role in ensuring the success of these programs and to have 
formed the development of the Affirmatively Furthering Fair 
Housing data tool and Assessment of Fair Housing pilot 
programs.
    Since then, we have worked with partners to build a strong 
community of practice and have drawn lessons and insights that 
can be applied to the current infrastructure package that 
Congress will consider.
    First, those programs demonstrated that comprehensive 
solutions were required for infrastructure development, 
including equitable education, housing, and even the physical 
design of communities to better promote health and prosperity 
for all.
    And second, as these programs have been expanded and 
reiterated in partnership with local communities, philanthropy, 
and the private sector, we have seen that the most successful 
and durable investments are the ones that align with, support, 
and center community-designed and community-led solutions.
    The scale of these and similar efforts must now grow 
dramatically. Today, 7 million adults live in renter households 
that are behind on rent due to pandemic-related job and income 
losses, and they face eviction and homelessness when the 
nation's eviction moratorium is lifted in July. During the 
pandemic, renters were disproportionately impacted, especially 
those of color who have lost their employment income due to the 
pandemic and have accumulated billions in debt, while 
predominantly White property owners have gained billions in 
wealth from low interest rates and increased home value, 
building on the multi-generational effects of discriminatory 
housing policies.
    We can no longer deny that racial inequity is a feature, 
not a market failure, of the current housing. We can begin to 
fix this by investing dramatically more in a range of housing 
needs, and we welcome Chairwoman Waters' Housing is 
Infrastructure bill and related legislation as critical 
starting points. These investments should include over $1.2 
trillion over the next decade, starting with an immediate 
infusion of several hundred billion dollars to capitalize the 
National Housing Trust Fund, or a similar mechanism, to 
preserve distressed rental properties and produce new 
affordable housing, rejuvenate public housing, fully fund 
vouchers, stabilize rents, and strengthen critical programs 
like the Community Development Block Grant (CDBG) Program and 
the HOME Program.
    We also have to ensure that as the new Administration works 
with Congress to shore up our fair housing protections and 
enforcement, that we put in place similar protections to 
guarantee that new infrastructure investments most directly 
benefit the 100 million Americans who are struggling. The 
return on this investment will pay dividends for generations to 
come.
    Our nation is at a crossroads. If we do not invest in 
housing and financial infrastructure, we will forfeit the 
opportunity to significantly improve the social and economic 
outcomes for millions of Americans with aspirations for better 
lives. An equitable, prosperous nation for all can only be 
achieved with our policymaking is commensurate with the scale 
of the challenges facing our society.
    [The prepared statement of Dr. McAfee can be found on page 
72 of the appendix.]
    Chairwoman Waters. Thank you, Dr. McAfee.
    Ms. Waggoner, you are now recognized for 5 minutes to 
present your oral testimony.

    STATEMENT OF JACQUELINE WAGGONER, PRESIDENT, SOLUTIONS 
         DIVISION, ENTERPRISE COMMUNITY PARTNERS, INC.

    Ms. Waggoner. Good morning Chairwoman Waters, Ranking 
Member McHenry, and members of the committee. Thank you for the 
opportunity to testify on the need for robust investment in 
America's housing infrastructure.
    We are just beginning to work our way out of a pandemic in 
which 22.2 million people lost their jobs and their 
livelihoods. Low-income people and communities of color were 
hit the hardest. If you remember nothing else from my opening 
remarks today, a recovery that is equitable must focus on the 
needs of the people: good-paying jobs to sustain their 
families; homes they can afford; infrastructure that is 
resilient; and a fair shot at upward mobility.
    I am the president of the Solutions Division of Enterprise 
Community Partners. With 40 years of experience and thousands 
of local partners nationwide, Enterprise has been able to build 
and preserve 793,000 homes, invest $61 billion in communities 
across this country, and improve lives. Our strategic 
priorities include advancing racial equity, climate resilience, 
upward mobility, and creating and preserving housing that 
people can afford. I am pleased to say that Enterprise isn't 
just talking about racial equity in terms of outcomes, but we 
are doing it in practice by providing capital to housing 
providers and builders of color who have historically been 
boxed out.
    I am a proud Los Angeles native, and this work is deeply 
personal to me. My parents took part in the Great Migration, 
moving from rural East Texas to California in pursuit of the 
American Dream. Growing up, I was bused 45 minutes from our 
home in South Los Angeles to a predominantly White school in 
Pacific Palisades. Every day, I was exposed to two communities 
divided by race, wealth, and opportunity, but also by housing 
quality, property values, and private investment.
    Today, these divisions remain. The impact of systemic 
racial discrimination through redlining and blockbusting makes 
the lack of affordable housing even more dire for communities 
of color. But if we seize the opportunity to invest in 
affordable housing, we can level the playing field. Access to a 
safe and stable home that is affordable is an essential tool to 
upward mobility.
    I applaud Congress for providing emergency rental relief 
and protections for people on the brink of homelessness, and I 
applaud this committee for recognizing the role housing can and 
must continue to play in scaling up solutions to address the 
impacts of COVID-19.
    However, now is the time to use this unique moment to do 
even more. A major infrastructure package investing in housing 
programs could get people to work in every community, and do it 
quickly. There are shovel-ready projects in every county across 
this country that could immediately begin construction and 
bring jobs to people who are ready to work, and create 
affordable homes over the long term. We saw this after the 2008 
crash, when the American Recovery and Reinvestment Act was 
passed. Funds for housing programs moved into the economy 
faster than investments in highway infrastructure.
    The investment in our nation's infrastructure should also 
support our communities by protecting the impacts of the new 
climate. In the past year alone, disasters across the U.S. 
caused nearly $95 billion in damage. The effects of these 
disasters are disproportionately felt by low-income 
communities. Investing in resilient infrastructure, including 
housing, reduces disaster recovery costs and saves lives. The 
infrastructure package could be the largest investment in 
affordable housing for decades, so we need to prioritize the 
good that can come with it: good-paying jobs; homes people can 
afford; infrastructure that is resilient; and a fair shot at 
upward mobility, moving America forward together.
    In conclusion, on behalf of Enterprise Community Partners, 
I would like to offer my gratitude to Chairwoman Waters and the 
committee for your leadership and for the recognition that we 
need bold action to move our country forward in a more 
promising and hopeful direction. I look forward to answering 
your questions. Thank you.
    [The prepared statement of Ms. Waggoner can be found on 
page 140 of the appendix.]
    Chairwoman Waters. Thank you very much.
    Professor Omarova, you are now recognized for 5 minutes to 
present your oral testimony.

STATEMENT OF SAULE T. OMAROVA, BETH AND MARC GOLDBERG PROFESSOR 
                   OF LAW, CORNELL UNIVERSITY

    Ms. Omarova. Chairwoman Waters, Ranking Member McHenry, and 
members of the committee, thank you for inviting me to testify. 
The purpose of my testimony is to describe a proposal for the 
creation of a National Investment Authority, a new Federal 
entity with a mandate to design, finance, and implement a long-
term strategy of U.S. economic development. The core element of 
this strategy will be systematic channeling of public and 
private capital into critical public infrastructure, which 
includes high-quality affordable housing.
    President Biden unveiled a $2 trillion infrastructure 
spending plan. This type of public investment commitment would 
be a powerful start for our post-pandemic recovery. It is 
critical, however, to supplement this commitment with a 
concrete plan to build an institutional platform for managing 
the infrastructure investment program on an ongoing basis and 
in a way that truly serves the interests of the American 
people. Otherwise, private financial intermediaries, Wall 
Street banks, private equity funds, and asset managers will 
control the process and divert public money to more privately 
beneficial uses. Given the stakes, we simply cannot allow this 
to happen.
    And that is why we need a National Investment Authority 
(NIA) now more than ever. The NIA will be a dedicated public 
platform for strategically coordinated, large-scale financing 
of roads and bridges, broadband, clean energy and 
transportation networks, manufacturing facilities, and, of 
course, good affordable housing in every geographic region and 
in every community across America, regardless of skin color, 
political creed, or median income.
    The NIA's core objective will be to promote inclusive, 
equitable, and sustainable growth of the nation's economy. The 
NIA will not replace direct fiscal spending on public 
infrastructure, nor is it going to compete with investment 
opportunities that already attract sufficient private funding. 
The NIA will target investments in publicly beneficial projects 
that are currently not funded at the necessarily scale, in 
private markets or through fiscal channels.
    While there is plenty of private capital eager to invest in 
hard assets like toll roads around major cities, private 
investors are rationally averse to funding risky, 
transformative projects that take a long time to become 
commercially profitable. And public investment is often 
constrained because of political and budgetary limitations, 
jurisdictional conflicts, and lack of internal coordination. 
The NIA will step into this funding gap. It is envisioned not 
as a typical standalone infrastructure bank but as a system 
governed by an independent Federal agency, the NIA Governing 
Board. The NIA Board will develop a long-term national 
investment strategy and oversee its implementation by the NIA's 
operating subsidiaries.
    The National Infrastructure Bank (NIB) will be the NIA's 
credit mobilization arm. It will support public and private 
infrastructure investment through loans, guarantees, 
securitizations, and secondary market-making. The National 
Capital Management Corporation, or ``Nicky Mac,'' will be a 
public equity investment manager. It will channel the more 
risk-tolerant institutional capital into high-impact, 
innovative, potentially transformative public infrastructure 
projects that cannot be financed solely in credit markets. In 
this role, Nicky Mac will function as a public alternative to 
private equity.
    Finally, the NIA's network of regional offices will work 
closely with local communities, businesses, and public 
authorities on region-specific infrastructure needs, and ensure 
meaningful community input into the NIA's investment strategy. 
In short, the NIA's design is a democratically accountable 
institution with broad legal authority and in-house capacity to 
identify long-term economic goals, translate them into specific 
investment priorities, and then actively finance and implement 
those priorities in practice. We currently do not have such an 
institution.
    The last historical precedent of this kind was the 
Reconstruction Finance Corporation, which injected massive 
amounts of capital into the economy during the Great Depression 
and World War II. Today, neither the Treasury nor the Federal 
Reserve are equipped to engage in this type of strategic 
investment management. This gap becomes especially obvious and 
dangerous during financial and economic crises.
    The NIA's financial market operations will supplement and 
support both the Treasury's and the Fed's policies. The NIA 
will provide that strong institutional muscle that U.S. 
Government needs not only to respond to crises but also to 
support the balanced growth and structural resiliency of the 
nation's economy on a daily basis.
    As we are coming out of the COVID pandemic, the need for 
institutional muscle is particularly great. The long-term 
economic impact of the pandemic is uncertain, but the signs are 
troubling. A wave of corporate bankruptcies, home mortgage 
foreclosures, and residential evictions, for example, could 
have a devastating effect on low-income Americans and people of 
color, while enabling private equity to scoop up distressed 
assets on the cheap. We need an NIA to keep an American economy 
from becoming one big, distressed asset.
    Thank you very much.
    [The prepared statement of Dr. Omarova can be found on page 
82 of the appendix.]
    Chairwoman Waters. Thank you very much, Professor Omarova.
    Mr. Riedl, you are now recognized for 5 minutes to present 
your oral testimony.

 STATEMENT OF BRIAN RIEDL, SENIOR FELLOW, MANHATTAN INSTITUTE 
                      FOR POLICY RESEARCH

    Mr. Riedl. Thank you. Good morning, Chairwoman Waters, 
Ranking Member McHenry, and members of the committee. Thank you 
for inviting me to participate in today's hearing. My name is 
Brian Riedl. I am a senior fellow at the Manhattan Institute, 
and I have been invited here to take a step back and provide a 
critique of the American Jobs Plan.
    I will make four points. First, the $2.6 trillion cost is 
fiscally irresponsible, given America's daunting Federal budget 
outlook. This would be the most expensive non-emergency law in 
half a century, and it is coming at a time when the national 
debt is already projected to double, from $17 trillion to $35 
trillion between 2019 and 2030. Overall, Washington is 
projected to run $100 trillion in budget deficits over the next 
30 years, by CBO, and if interest rates exceed the 
Congressional Budget Office (CBO) baseline by 1 percentage 
point, that would add $30 trillion in interest costs over 3 
decades, just 1 percent. Even if this $2.6 trillion is fully 
paid for in new corporate taxes, it is still not fiscally 
responsible, because we already need nearly every progressive 
tax proposal just to pay for the current programs we have.
    Second, while infrastructure can certainly use some 
upgrades, lack of funding is not the main problem. Rather, 
America's infrastructure is among the most bureaucratic, 
expensive, and slowly built in the world. Consider that CBO 
reports that Federal investments deliver returns of just 5 
percent, versus 10 percent from private sector investments. The 
per-mile of the interstate highway construction quadrupled from 
1960 through 1990, and has continued to grow since. The Davis-
Bacon Act raises wages by 22 percent. Our subway systems cost 
as much as quadruple the world average to build.
    Many of these delays are driven by the necessary but slow 
environmental impact statements and historical artifact 
reviews. Consider that environmental reviews commonly exceed 
1,000 pages and require 7 years to complete, with several 
taking more than 17 years, and no ground can be broken until 
the project has survived the legal gauntlet, including appeals 
by any litigant. By comparison, these statements take 2 years 
in Canada, and 3\1/2\ years in the European Union.
    Third, despite the title of, ``American Jobs Plan,'' there 
is a broad economic consensus that infrastructure policies do 
not provide short-term stimulus: first, because of the 7 years 
needed to finish the environmental impact statements before you 
can break ground; and second, because Federal investment is 
often offset by State and local investment reductions, and the 
infrastructure is most needed in fast-growing communities where 
the unemployment rate is already low.
    Thus, the Congressional Research Service (CRS) has 
concluded that the short-term effect on output and employment 
could be nullified or even negative. When combining the painful 
taxes and ineffective spending, just yesterday the Penn Wharton 
budget model reported that the American Jobs Plan will, over 
the long run, create no net jobs, reduce wages by 0.8 percent, 
reduce the capital stock by 3 percent, and reduce the GDP by 
0.8 percent. And Penn Wharton is not a conservative group.
    Finally, the American Jobs Plan includes a historic 
expansion of corporate grants, loans, and contracts with little 
to no congressional oversight. Rather than rely on tax 
incentives and tightening patents and copyrights, Washington 
would micromanage the innovation process by steeply raising 
corporate tax rates and then returning hundreds of billions of 
dollars in Federal grants to companies that undertake 
government-approved projects. The Administration is seeking 
huge discretion in dispensing hundreds of billions of dollars, 
which risks becoming a budget-busting slush fund for favored 
industries, businesses, and allies.
    From Solyndra to the now-defunct Advanced Technology 
Program, Washington's track record of picking winners and 
losers is not particularly strong, and these programs often 
invite corruption and collusion between big business and 
government.
    Today's promising companies have no problem securing loans 
and equity from a financial system awash in capital and low 
interest rates. More corporate welfare is not necessary.
    Therefore, I recommend that Congress pare back the cost of 
this proposal, encourage State and local governments to use 
their $500 billion in recent aid for infrastructure, and that 
we reform our infrastructures to make them more effective, more 
efficient, and get more bang for the buck.
    Thank you.
    [The prepared statement of Mr. Riedl can be found on page 
129 of the appendix.]
    Chairwoman Waters. I thank all of the witnesses, and I now 
recognize myself for 5 minutes for questions. I think I will be 
addressing this first question to Dr. McAfee.
    Dr. McAfee, the last time the Federal Government made a 
massive investment in infrastructure, it laid the foundation 
for generations of families and long-time economic growth for 
the nation. Yet, many were left behind in the process through 
discriminatory housing policies, highway systems that displaced 
entire neighborhoods, and unequal community development that 
created segregated living patterns. Today, where we live has 
become a central predictor of health, education, employment, 
and even financial outcomes. Nearly all of our Federal housing 
stock remains concentrated in areas of poverty and racial 
segregation.
    With the infrastructure plan that the Biden Administration 
has put forward, we have a unique opportunity to ensure that 
the next generation of Federal infrastructure development is 
much more equitable than the last.
    Would you share your thoughts on the importance of ensuring 
that the use of infrastructure funds for housing adheres to the 
Fair Housing Act and results in net housing and community 
opportunities for historically marginalized people and 
communities?
    Mr. McAfee. Yes. The Fair Housing rule uses what I think is 
the essence of government, the ability to advance equity, just 
and fair inclusion into a society in which all can participate, 
prosper, and reach their full potential. That is what we should 
be paying attention to. And if you look at our recoveries over 
the years, we have often skipped over the communities who have 
needed the investment the most. We have not centered on Black 
and Brown communities. We may use the language in our rhetoric, 
we may use the language in our written documents, but generally 
we can't answer the question, are they better off?
    So as we go forward, when we think about this package of 
investments, it is important for us to prioritize folks who 
have been left out, folks who still haven't, quite frankly, 
recovered from 2008, who have lost more than half of their 
wealth, that is, Black and Brown folks.
    The reality is that this is an unprecedented opportunity. 
Yes, the definition of infrastructure has expanded. It has 
expanded because we have learned now that you can't just do 
roads and bridges. You have to deal with lead; more than 77 
million folks in this country are struggling because their 
water is not clean.
    So if you want to solve the issues of housing, education, 
community safety, and build communities of opportunity, you 
have to hold all of those intersections, and that means you 
have to hold the interest of equity, and that means you have to 
do the thing that this nation has not often wanted to do, 
design opportunity in the very communities that we have been so 
intentional of designing opportunity out of.
    Chairwoman Waters. Thank you so very much.
    Ms. Waggoner, when we discuss providing more funding for 
affordable housing, one of the counter-arguments we hear when 
it comes to equity and climate justice is that addressing these 
issues is too costly. Your written testimony says that, 
``Centering racial equity in housing is not just good policy. 
It is also good business.''
    What does that mean in the context of affordable housing? 
Similarly, would requiring green building and mitigation to 
prepare for possible disasters make construction prohibitively 
expensive for the affordable housing sector, or can these types 
of longer-term investments also be seen as good business?
    Ms. Waggoner. Thank you, Chairwoman Waters. Yes, 
absolutely, this could be seen as good business. Building 
housing actually creates jobs. We know for every 1,000 units 
that are built, you get roughly 1,200 jobs, and when you think 
about green development and resilience--Mr. McAfee touched on 
it--it is important that we build housing that is resilient and 
green and healthy for people.
    We have learned, through our own efforts in our green 
communities, which over half of the States in the country 
utilize, that it actually is not more expensive to build this 
type of housing. To build green and resilient housing means 
that we spend less on recovery when disasters come. We know 
that they are imminent, and we have learned that when you 
invest in housing that is sustainable and green, that people 
live healthier lives, that the assets are more resilient so 
they can survive natural disasters, and that it is good 
business all the way around, and it is good for the people.
    Chairwoman Waters. Thank you very much.
    The gentleman from Ohio, Mr. Stivers, is now recognized for 
5 minutes.
    Mr. Stivers. Thank you. As you know, the U.S. population in 
non-metro areas, rural areas, stood at 46 million in 2019. That 
is the most recent data available. Ms. Yentel, in your 
testimony you highlighted that in my district in particular, in 
rural central and southern Ohio, there are 4 affordable housing 
units available for every 10 of the lowest-income renter 
households. Could you outline what the NLIHC's view of the top 
three priorities for Federal Government policymaking should be 
to ensure that these rural households are properly housed?
    Ms. Yentel. Yes. Thank you for the question, Congressman 
Stivers. The affordable housing shortage that exists in our 
country exists in urban, suburban, and rural communities alike, 
and a shortage of homes [inaudible] state that has a sufficient 
number of homes affordable to those lowest-income people.
    In rural communities, we need to build more apartments and 
make them affordable to the lowest-income people, extremely 
low-income seniors, families with kids, people with 
disabilities, and we do that through expanding the National 
Housing Trust Fund. That is a block grant to States to allow 
them to build, preserve, and operate rental homes affordable to 
extremely low-income people, and it could be highly effective 
in rural communities.
    We also need to make sure, in rural communities, that we 
are preserving the housing and the affordable housing that 
exists. USDA rural properties are struggling right now. Many of 
them need repairs, capital repairs, and we need to ensure that 
the funding allows for these properties to maintain their 
affordability. If these properties lose their affordability 
restrictions, then the lowest-income rural renters in those 
communities won't have other options and won't be able to 
afford their housing.
    So we need to build more apartments that are affordable to 
the lowest-income people in rural communities by expanding the 
National Housing Trust Fund, and we need to prioritize 
repairing and preserving the rural housing through USDA that 
already exists.
    Mr. Stivers. Thank you. Mr. Riedl, I have heard a lot of 
different estimates about the jobs created by this 
infrastructure plan. I know the Administration is claiming that 
it would produce 19 million new jobs. Do you have an estimate 
of how many jobs the plan would actually create?
    Mr. Riedl. Thank you, Congressman. The 19 million figure 
was extremely overestimated, and, in fact, after The Washington 
Post fact-checked it, the Administration pared the number 
significantly back and admitted that it was an error.
    In terms of the actual jobs created, again, just last 
night, the Penn Wharton budget model came out with an estimate 
that said there would be zero long-term jobs created in this 
bill, in part because of the taxes negating whatever small 
impacts you could get on the spending side. In fact, they said 
wages would fall, and GDP would fall over the long term.
    The Tax Foundation also just looked at the tax side of the 
bill. Granted, they didn't look at the spending side. But in 
looking at the tax side, they said that it would reduce long-
term output by 0.8 percent, eliminate 159,000 jobs, and reduce 
wages by 0.7 percent. Specifically, the Tax Foundation said 
that the bottom 20 percent of earners would see a 1.5 percent 
drop in after-tax income over the long term as a result of this 
bill. Again, it is because a lot of the spending is not 
particularly effective in getting long-term bang for the buck, 
and then you also have $1.8 trillion in taxes.
    Mr. Stivers. Great. Thank you. Can you give us an update on 
the current state of the economy? I see, ``Help Wanted'' ads 
everywhere. I just did a job fair in my district. There were 
2,000 open positions in my area, and we only had about 400 job 
applicants who came to our online job fair last week. And what 
do you think this bill could mean for inflation?
    Mr. Riedl. We gained 916,000 jobs last month. We have 
already gained back 14 million of what we lost. The 
unemployment rate is down to 6 percent. CBO says we are on pace 
to get close to 5 percent by the end of the year, 4 percent 
next year. If that is the case, you actually risk overheating 
the economy, and that is when you start to see some inflation. 
The economy is recovering just fine, and these long-term 
effects, again, you start to get overheating and then you start 
to get inflation, and there are some real economic costs there.
    Mr. Stivers. I yield back, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from New York, Ms. Velazquez, who is also the Chair of the 
House Committee on Small Business, is now recognized for 5 
minutes.
    Ms. Velazquez. Thank you, Madam Chairwoman. Ms. Yentel, one 
of the bills we are discussing here today is my bill, H.R. 235, 
the Public Housing Emergency Response Act. Thank you for the 
National Low Income Housing Coalition's endorsement and ongoing 
support.
    While President Biden's plan calls for an investment of $40 
billion for public housing, my bill, like the chairwoman's, 
calls for an investment of $70 billion. Would you support a 
higher investment of this kind? Can you explain why $70 billion 
is important?
    Ms. Yentel. Absolutely. Thank you, Congresswoman Velazquez. 
Yes, $70 billion is necessary to repair our public housing 
infrastructure. Public housing is home to nearly 2 million low-
income renters, predominantly people of color. Congress has 
disinvested in public housing for decades, and as a result we 
are losing 10,000 to 15,000 units a year to obsolescence or 
delay, as many more public housing units fall into deep 
disrepair.
    So, $70 billion is the amount that is needed to repair 
public housing so that it is decent and habitable for the 
people who live there today and for future residents and future 
generations.
    Ms. Velazquez. Thank you for that answer. Ms. Yentel, 
according to most estimates, we lose about 10,000 units of 
public housing each year due to a lack of investment. Could you 
please explain what would happen if we choose not to make a 
historic investment in public housing as part of our 
infrastructure plan?
    Ms. Yentel. We have a tremendous affordable housing crisis 
in our country right now that is most impacting the lowest-
income tenants, extremely low-income people, many of whom live 
in public housing. So if we continue to disinvest in our public 
housing infrastructure and lose it in many of our communities, 
it means we are losing the few affordable housing units that 
exist for those extremely low-income people, which will 
exacerbate the affordable housing crisis and impact low-income 
people and people of color the most.
    And I would say, too, that there are really consequential 
health impacts to families and children when we continue to 
disinvest in public housing. Those leaky roofs and leaky 
toilets result in mold infestation, which results in asthma or 
other respiratory illnesses. When there are holes or peeling 
paint it can lead to lead exposure, which can have devastating, 
long-term harmful consequences for children and families.
    So, there are real, harmful consequences from disinvesting 
in public housing. We need to invest at least $70 billion to 
repair public housing, keep it habitable, and maintain this 
essential affordable housing infrastructure in our communities 
across the country.
    Ms. Velazquez. Thank you. We have seen that during this 
pandemic, where we see ventilation systems that needed to be 
upgraded to prevent the spread of the virus.
    Ms. Waggoner, another one of my bills we are discussing 
here today will re-establish Federal financing-backed funding 
for HUD-insured, multi-family, risk-sharing mortgages, which 
was a successful partnership between Treasury, HUD, and the 
States on local HFAs during the Obama Administration. Can you 
please explain the importance of re-establishing this program 
and what it will mean for the development and redevelopment of 
multi-family properties?
    Ms. Waggoner. Thank you, Congresswoman Velazquez. We really 
need every level of government participating, especially those 
things such as the FDA, housing credits, USDA. We need all of 
those resources to make these projects feasible. We have to be 
clear that wages and housing costs have not aligned. Many 
Americans are on the brink of homelessness, and so you need 
public-private partnerships that leverage additional resources, 
because the government can't do it alone.
    So I am fully supportive of such things, because we need to 
leverage what the Federal Government will invest with private 
partners to scale.
    Ms. Velazquez. Thank you. Thank you, Madam Chairwoman. I 
think my time is about to expire.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Missouri, Mrs. Wagner, is now recognized for 5 minutes.
    Mrs. Wagner. Thank you, Madam Chairwoman. Madam Chairwoman, 
Republicans on this committee agree that improvements to 
America's infrastructure are sorely needed. In Missouri, my 
home State, alone, there are over 2,000 bridges and over 7,000 
miles of highway that require repair. We all generally agree on 
fixing bridges, improving dams and levees, paving roads, and 
extending broadband to underserved communities.
    But the nearly $2.3 trillion in President Biden's plan has 
nothing to do with infrastructure and does nothing to fix 
outdated and inefficient programs currently in place. The Biden 
Administration has touted this proposal as a jobs creator, but 
we know that the private sector does a much better job of 
creating and maintaining jobs than the Federal Government.
    The recent stimulus checks and continued additional 
unemployment benefits have disincentivized many Americans to 
return to work. In my district, I have heard from countless 
employers in the hospitality, restaurant, grocery, and farming 
industries who have job openings that pay over $15 an hour, and 
yet they cannot find anyone to fill them because folks are 
willing to stay home and receive the same wage from the Federal 
Government. If we want to support our economy and create jobs, 
we need to incentivize people to get back to work.
    We have to be good stewards, I think, of the American 
taxpayer dollars, and when an infrastructure plan of $2.3 
trillion only includes 7 to 10 percent for roads, highways, 
bridges, ports, and traditional infrastructure, I am concerned 
that this is not a good use of taxpayer dollars.
    Additionally, the Administration wants to raise taxes in 
order to pay for it. Mr. Riedl, what are your thoughts on this 
package?
    Mr. Riedl. Thank you, Congresswoman. I agree with your 
critique. I think we all agree we want a better infrastructure, 
and we all agree infrastructure is the key to economic growth. 
I think there are some concerns that, again, when you only have 
$115 billion for highways, roads, and bridges, I think we can 
do a lot more on that. Certainly, our infrastructure is more 
than highways, roads, and bridges, but I am not sure it is 
everything in this package. I am not sure that long-term care, 
whatever its merits, has a place in an infrastructure package.
    I also agree with your point that the economy is actually 
recovering pretty well. We had 900,000 new jobs last month. We 
are going to get the unemployment rate down to 5 percent at the 
end of the year. I think a better infrastructure package could 
be a lot leaner, and it could also take advantage of the fact 
that States just got $530 billion between multiple programs in 
order to--they are not supposed to cut taxes and we do not want 
to create permanent programs, but their budget deficits are 
going away. We need to leverage States. We also need to get 
more bang for the buck, and I think, as I mentioned in my 
testimony, we could do a lot more to make sure that these 
programs are more effective, streamlining some of the red tape.
    Overall, I think this is not necessarily the bill to do the 
biggest expansion of government in 50 years.
    Mrs. Wagner. It is, frankly, just a reordering of our 
entire social structure, the hundreds of billions that have 
already been distributed. The last $1.9 trillion spending bill, 
that is what I am going to call it, had very little to do with 
COVID, in a timely, targeted, and tied-to-COVID basis. It is 
kicked out for years down the road, quite frankly. And this 
particular piece of legislation has over $400 billion for 
Medicaid expansion. It has $174 billion for electric cars and 
other climate programs and things.
    Mr. Riedl, can you discuss the economic benefits of private 
sector versus Federal investment when it comes to 
infrastructure spending?
    Mr. Riedl. Thank you. The Congressional Budget Office did a 
report in 2016 which says that private investment has an 
average return of 10 percent, and government investment has a 
return of only 5 percent. And that is, in part, because 
government does not respond to market forces, it has very high 
labor costs, it is ineffective, as crowded out by less 
investment in the private sector in State and local 
governments.
    So the government is only half as effective as the private 
sector. Don't take my word for it. That was from the 
Congressional Budget Office in 2016.
    Mrs. Wagner. Thank you very, very much for your testimony. 
I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
California, Mr. Sherman, who is also the Chair of our 
Subcommittee on Investor Protection, Entrepreneurship, and 
Capital Markets, is now recognized for 5 minutes to speak on 
the jobs bill.
    Mr. Sherman. Thank you. The gentlelady from Missouri argues 
that recharging stations are not infrastructure. It is a 
peculiar thought to think that you can build a road for the 
cars, and that is infrastructure, but you try to recharge the 
cars and that isn't infrastructure. Only if you are dedicated 
to fossil fuel cars would you conclude that roads are good but 
recharging stations are somehow excluded.
    A number of the Republican--well, especially a number of 
the witnesses, actually one witness, has said, ``Oh, our 
economy is going to overheat. We are on our way to 4-percent 
unemployment.'' Well, 4-percent unemployment may be great for 
the Chamber of Commerce. It creates enough demand to keep the 
stores open. But pay for those without a college education in 
this country is at the same level now that it was 30 years ago, 
adjusted for inflation.
    We need a labor shortage in this country. We need employers 
screaming that they can't get the labor they need, and then 
they will start giving the raises as they compete for employees 
that the working class has been deprived of for the last 3 
decades, and we will see higher labor market participation as 
well.
    We need to build more. NIMBY-ism (Not in my Backyard) is a 
real problem. So many communities in this country are open to 
rich and poor, people of color and people without color, as 
long as you can afford a McMansion build on a one-quarter acre 
lot. That isn't open housing. We have people sleeping on park 
benches and we see them. We have people sleeping on couches, 
two and three families to a unit. We don't see them. But we 
have a housing shortage in this country.
    One thing that exacerbates that shortage slightly, Ms. 
Waggoner, is the decision by FHFA to reduce the amount of 
apartment loans that Fannie Mae and Freddie Mac can make by 
saying that green loans, those to finance energy and water 
improvements, felt against the $70 billion cap. Should we have 
those green loans count against the cap, and how does 
constricting the cap prevent the financing of the new 
apartments that we need?
    Ms. Waggoner. Thank you, Congressman Sherman. I really 
appreciate that question about green housing. I have a number 
of experts on my team who know whether it should be included in 
the total or not. I would be happy to follow up with you to 
give you that information.
    Mr. Sherman. I would say that if we are going to include 
them, we ought to raise the cap, because we have an excellent 
program in our country to provide for middle-class and upper-
middle-class housing. We have tax incentives. We have 
financing, without any cap, and, of course, the zoning rules. 
And we have the finest upper- and middle-class housing in the 
world, with more space per person than anywhere in the world. 
We need to see financing and tax incentives to match that for 
the apartment units, for the affordable units that we need.
    Ms. Yentel, we are considering Chairwoman Waters' Housing 
is Infrastructure Act, which would incentivize State and local 
governments to remove barriers for high-density affordable 
housing. We are going to be funding a lot of transit in this 
bill, and a lot of communities are anti-density. But without 
density, transit doesn't have enough customers to be able to 
operate, and without transit, density just creates traffic 
jams.
    And I know in your testimony you say that we need 100,000 
new--that we are running 100,000 new housing units behind. 
Should we tie both CDBG and transportation funding to 
communities willing to allow for the construction of moderate-
income housing, particular rental housing?
    Ms. Yentel. We absolutely should, and I would say we should 
be as bold as possible there. Restrictive local zoning inhibits 
the supply of any kind of apartments, and especially affordable 
apartments. This drives up costs for everybody. It further 
entrenches segregation and racial discrimination. And there is 
a tremendous opportunity now, with an over $2 trillion 
infrastructure package, to create incentives or requirements 
for local communities who receive these funds to address, 
remove, and eliminate these restrictive zoning laws that have 
real harmful consequences.
    And I would say we should go broader than the CDBG funds. I 
think that is a good place go. But for the communities who may 
not want to make these changes, the big infrastructure dollars 
are going to be a better motivation for them.
    Mr. Sherman. Thank you.
    Chairwoman Waters. Thank you very much. The gentleman from 
Oklahoma, Mr. Lucas, is now recognized for 5 minutes.
    Mr. Lucas. Thank you, Madam Chairwoman. Projects have 
always, unfortunately, been hamstrung by red tape. The National 
Environmental Policy Act (NEPA) process is time-consuming, and 
I fear unnecessarily complex, resulting in inflated costs, 
delays, and endless litigation.
    Mr. Riedl, you describe, in your testimony, and you have 
made comments about how the environmental review process can 
last for years. Could you discuss how reforming the process is 
needed to ensure an infrastructure investment is spent in an 
efficient and effective way, and timely?
    Mr. Riedl. Absolutely. Right now, the average environmental 
review takes 7 years in the United States, compared to, in 
Canada, if they believe a full review is necessary, it is 
capped at 1 to 2 years, and in the EU, it is capped at 3\1/2\ 
years, and I wouldn't say that those countries just don't care 
about the environment.
    The average in the U.S. is 7 years. Several recent reviews 
have taken 17 years. And in a particularly egregious example, 
the Southeast High Speed Rail Project, first proposed in 1992, 
and the draft environmental review was finished in 2017--25 
years.
    One of the big reasons that we have delays is because the 
United States is unique in that environmental reviews can be 
challenged in court by virtually anybody who wants to do so. In 
other countries, they do the reviews more quickly, and when it 
is challenged, it is challenged administratively. You don't 
necessarily have every case go to court and have endless 
appeals. That draws out the process much longer, and 
additionally, it leads to defensive design. It is one of the 
things that raises our costs in that contractors over-design 
projects in a defensive way because they don't want to have to 
deal with all of the expensive lawsuits.
    We can learn a lot from Canada and the EU in streamlining 
the process, streamlining the lawsuits, getting it done in 2 
years instead of 7, 17, or 25 years.
    Mr. Lucas. The Biden Administration plans to permanently 
raise the taxes on businesses--and taxes are taxes; we all wind 
up paying them--for this massive infrastructure proposal. You 
have touched on this before, Mr. Riedl, but can you discuss how 
this will impact U.S. competitiveness and investment?
    Mr. Riedl. Absolutely. What the President is proposing 
would raise us back to the highest statutory corporate tax in 
the world. It would go from 21 to 28 in the U.S., and if you 
add State taxes it would go to 33 percent, which means, again, 
you have the highest rate in the world. While everyone else is 
cutting their corporate tax, we are raising it.
    Additionally, one of the results of their proposal would 
essentially create a global minimum tax of about 26 percent, 
which is higher than the 23 percent average rate in the 
European Union. What that means is that an American 
multinational company in England is going to be paying 26 
percent, while the French, the Germans, and every other 
multinational is paying 19 percent in England. So once again, 
American companies are going to have to compete with their 
hands tied behind their back. They are going to have a higher 
rate in these countries than their competitors.
    The Tax Cuts and Jobs Act isn't perfect, but one of its 
goals was to increase competitiveness and investment, and we 
have seen growth in business investment. Overall, business 
investment is 50 percent higher than it was projected before 
the Tax Cuts and Jobs Act. That will, in the long term, give us 
the investment that we need, that we are talking about.
    And so, the idea of raising us back to the highest 
corporate rate, having our multinational companies pay more in 
other countries than their competitors, is just going to 
reverse some of that progress we have made. You can't raise 
taxes by $1.8 trillion and not have it hurt investment, hurt 
wages, and hurt growth.
    Mr. Lucas. Decades ago, when I was an ag econ student at 
Oklahoma State, I took a number of intermediate and advanced 
economics classes over at the business school, and one of the 
topics of discussion then was how to create more mobility in 
the workforce and how to create a more flexible workforce. And 
that was 40 years ago. Maybe, in some ways, we are looking at 
this problem from the wrong direction. We don't want to 
warehouse people and trap them in a particular place, and we 
don't want to make them inflexible or unable to adjust with the 
economy. Maybe we are just looking at this from the wrong 
angle, and the sooner we refocus, the better off everybody in 
America will be.
    With that, I yield back.
    Chairwoman Waters. The gentleman from New York, Mr. Meeks, 
who is also the Chair of the House Committee on Foreign 
Affairs, is now recognized for 5 minutes.
    Mr. Meeks. Thank you, Madam Chairwoman, for this very, very 
important hearing. Housing infrastructure is absolutely key for 
America, because if we don't improve our housing 
infrastructure, people in the richest country in the world will 
continue to be living on the street.
    I think back to my childhood, when America was thinking 
big, and it was thinking about housing infrastructure. I 
remember, as a child, I lived in a tenement that was poor. My 
parents were able to move into New York City Housing Authority 
public housing, and it was an opportunity for me and my sisters 
to live in a decent, clean place. We thought it was heaven.
    That was over 60 years ago. While it is not investing in 
housing infrastructure, number one, those developments have 
gone down tremendously because there was nothing to do to keep 
them up, so they are virtually like the tenement houses that 
were run down, that we moved from to get into public housing, 
and we stopped investing in that infrastructure.
    So, investing in affordable public housing is tremendously 
important. That is infrastructure that we need to do. It is not 
reinventing the wheel. It is what we did to make America move 
forward to become a better country for all, whether you had 
money or not. It gave us pride. And now we need to make sure 
that we are reinvesting in that infrastructure.
    And given where we are today--and I guess I will direct 
this to Ms. Yentel--we see that on the commercial side, given 
the pandemic, et cetera, there is a lot of commercial real 
estate that now is there. People's working norms seem to be 
changing, due to barriers of working at home.
    So given the glut in commercial real estate, what do you 
think about the prospect of increasing housing supply, by 
governments and developers working together to transform 
distressed commercial properties into affordable housing units? 
Do you think there are barriers to such repurposing of 
properties at the Federal level that Congress should consider?
    Ms. Yentel. Thank you, Congressman Meeks. I will say a few 
things on this. One, it is always less expensive to convert 
existing properties into affordable housing than it is to 
construct new affordable housing, so any opportunity we have to 
take abandoned buildings or existing buildings that we can 
repurpose and convert into affordable housing, we should. We 
will be able to stretch out further in that way and create more 
units.
    Two, I would say that there are new resources that were 
made available in the American Rescue Plan, $5 billion for 
communities to address homelessness, that specifically can be 
used for communities to acquire and convert hotels and motels 
into permanently supportive housing, and we strongly encourage 
communities to do that, and for Congress to consider providing 
additional resources to do that. It is a logical next step and 
exit strategy for the communities that moved, people who are 
experiencing homelessness during the pandemic to safety into 
hotel rooms. Those permanent supportive housing units can then 
become an exit strategy for those households, and the community 
then has permanent housing that they can keep in that community 
for future needs and future generations.
    Where challenges exist, it comes down to, again, 
restrictive local zoning and this sense of NIMBY-ism of 
communities opposing having affordable housing in their 
communities, and local zoning that empowers them to continue 
that opposition. So again, I would really encourage the 
Congress to think about how they use the full suite of 
resources in this infrastructure spending package, as those 
[inaudible] for local communities to remove those restrictive 
zoning laws and allow for more affordable housing to be built 
or converted into affordable housing.
    Mr. Meeks. Thank you. Let me ask, really quickly, in my 
last 40 seconds, Ms. Waggoner, your testimony discussed the 
importance of federally funded infrastructure projects, 
including housing, but being built to resiliency standards. I 
know public housing in my neighborhood was devastated by 
Superstorm Sandy. Can you talk a little bit about the 
importance of investing and building up some of these places to 
resiliency standards?
    Ms. Waggoner. Thank you, Congressman. Yes, absolutely. 
Enterprise was involved with you in New York during Hurricane 
Sandy, and we know what infrastructure looks like. It's lifting 
up the buildings, investing in infrastructure so it can sustain 
such natural disasters. So we have plans for earthquakes, 
water, and other efforts. Thank you.
    Mr. Meeks. Thank you. I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Florida, Mr. Posey, is now recognized for 5 minutes.
    Mr. Posey. Thank you very much, Madam Chairwoman, for 
holding this hearing, as you have held others on affordable 
housing. I really appreciate your passion for this issue.
    I was sad to see the gentleman from California take a shot 
at Mrs. Wagner. Since she didn't have an opportunity to 
respond, I think it needs to be clear. She supported the 
economic policies of former President Trump that resulted in 
the strong economy that resulted in more job openings than 
people looking for work. And when you have a demand for workers 
like that, it increases the economic value of every single 
person in the workforce.
    By profession, I have been a dues-paying REALTOR for over 
40 years, and no one in this room appreciates or supports the 
value of housing more than I do. Decent housing is essential to 
the American Dream and a civil and prosperous society for all.
    In my district, we currently have an all-time high housing 
shortage, in large part due to the flight from some high-tax, 
overregulated northern States. And, of course, our sellers' 
market harms those who have the most limited means available to 
them the most.
    Mr. Riedl, am I wrong to believe that former President 
Trump's economy, which resulted in the lowest unemployment rate 
for minorities, was the best thing possible to make home 
ownership affordable to more people?
    Mr. Riedl. Thank you for the question, Congressman. The 
economy did very well, particularly for wages. The Congressman 
from California mentioned that what we really want is to see 
rising wages. Well, under the first 4 years of President Trump 
that we have data for, real wages jumped 3.5 percent annually, 
which was significantly faster than at any point in the 
previous 15 years. And if you want to look at the bottom, the 
bottom-earning quartile saw their real wages rise 4.2 percent 
annually, versus 3.1 percent for the top-earning quartile, 
meaning wages were rising a third faster for the bottom earners 
than the highest earners.
    Additionally, wages grew faster for non-Whites than for 
Whites during those 4 years. Some of these trends started under 
President Obama, but they vastly accelerated. And that is 
because you had an unemployment rate of 3.5 percent. When the 
unemployment rate drops low enough, you start to see wages 
rise, particularly at the bottom. And if you want people to be 
able to move up, afford homes, and be prosperous, the key is a 
low unemployment rate in a fast economy that raises wages at 
the bottom, like we saw before the pandemic.
    Mr. Posey. Thank you, Mr. Riedl. So, just to be clear, do 
you agree that cutting taxes creates jobs, spurs investment, 
grows the economy, and makes housing more affordable to more 
people?
    Mr. Riedl. Absolutely, and it is not just theory. Like I 
said, business investment has grown 50 percent faster than 
projected since the 2017 tax cuts. Before the pandemic at 
least, the real GDP was growing 50 percent faster than 
projected. This is the key to raising wages. You create 
incentives to work, save, and invest, you get investment out 
there, and wages start to rise.
    Again, it is not theory. If you take a look at the 
projections of the economy before the tax cuts, and the 
performing after, we beat the CBO, Federal Reserve, and blue 
chip projections.
    Mr. Posey. What do you think about the concept of tax 
incentives for creating affordable housing?
    Mr. Riedl. I'm sorry, what?
    Mr. Posey. What are your thoughts on using tax incentives 
to enhance affordable housing?
    Mr. Riedl. I am not sure. In terms of building affordable 
housing, I am not sure that tax incentives by themselves are 
enough. I think what we need is a growing economy and demand. I 
think tax incentives can be part of the solution, but if wages 
are rising, demand is rising, you are overcoming a little bit 
of NIMBY-ism with local zoning, that is the key to getting 
housing. And we saw that in the late 1990s, when the economy 
was on fire, and we saw that before the pandemic. What you need 
is a growing economy with growing wages at the bottom. 
Otherwise, a tax incentive itself is not necessarily going to 
help the people afford the houses whom we want to get in the 
houses.
    Mr. Posey. Right, and I thank you for your comments. Madam 
Chairwoman, I see my time is up, so I yield back. Thank you.
    Chairwoman Waters. Thank you. The gentleman from Georgia, 
Mr. Scott, who is also the Chair of the House Agriculture 
Committee, is now recognized for 5 minutes.
    Mr. Scott. Thank you very much, Madam Chairwoman. I was 
very pleased to lead the legislation, along with Chairwoman 
Waters, that dealt with bringing $10 billion in for homeowner 
assistance, which was included in the American Rescue Plan, as 
well as $25 billion for rental assistance and utilities. We 
moved on that. It had a great impact.
    But I want to pause for a moment here, because my 
Republican friends have this talking point, ``I looked at all 
of this that is in the bill, and 1 percent has to do with 
COVID-19.'' And here we are, and I have heard some of the 
comments from my Republican friends, and they are raising 
issues of, what does this housing shortage, homelessness, have 
to do with COVID-19? That is why we have this. We have had this 
problem with homelessness. We have had it all along. But now it 
has been exacerbated. Why? Because of COVID-19.
    They had the same sound bite when we had to deal with why 
we needed to increase the food supply, why the lines were long. 
All you have to do is look in any city, any town, and you see 
the homelessness that has grown, and the impact that COVID-19 
has had on this, because they don't have the money. They are 
losing it.
    So, I hope my Republican friends will understand that this 
economic situation we are in is because of COVID-19. We 
wouldn't be in it if this disease and pandemic hadn't been on 
us. So, we are trying to deal with this in a rational way.
    But now, Ms. Yentel and Mr. McAfee, and others, I am 
concerned about what we have done. What is your understanding 
of our getting this money out? It is critical that this funding 
is distributed efficiently and effectively and immediately, so 
that our States and Territories can help. In other words, we 
have the funding, we have the need, but now where we are on 
implementing this money? Where are we, in your opinion? Are we 
moving fast enough? Is our information in place to get the 
money that we have already gotten down to help them? Mr. McAfee 
and Ms. Yentel, I think you all may want to give me a yes or a 
no, and other members too. Are we moving quickly enough? Is 
that money still sitting there and not getting down to the 
people?
    Mr. McAfee. That money is moving. It is beginning to get 
down to the people. And as we have heard before, we do need to 
refocus. We do need to refocus, because we do need a healthy, 
vibrant economy. That economy needs to be equitable. No matter 
where you sit on the political spectrum, the reality is that in 
this nation, 100 million folks are economically insecure. That 
is the reality. One in three people are struggling to make ends 
meet, no matter the color of their skin.
    Mr. Scott. Ms. Yentel, your thoughts?
    Ms. Yentel. Yes, thank you. So at this point, Congress has 
appropriated a combined $46.5 billion to help address the 
nearly $50 billion in rent and utility arrears that renters 
have accrued during the pandemic. Communities are getting 
programs up and running. We are tracking all of them throughout 
the country. At last count, there were close to 180 emergency 
rental assistance programs that are using the first tranche of 
the $25 billion, and more are coming online every day. There 
are about 30 Statewide programs in effect, and many more city 
and county programs.
    I think we have to find the balance between getting the 
money to the people who need it the most, the lowest-income 
people, the most marginalized renters, and small landlords, and 
recognize that takes more time to do the deliberate outreach. 
That is why it is so essential that we keep the Federal 
eviction moratorium in place until communities can get these 
resources to the people who need it the most.
    Mr. Scott. Thank you very much.
    Chairwoman Waters. Thank you, Mr. Scott. The gentleman from 
Missouri, Mr. Luetkemeyer, is now recognized for 5 minutes.
    Mr. Luetkemeyer. Thank you, Madam Chairwoman. I just want 
to clarify a little something here. I think Mr. Sherman, a 
while ago, went after Mrs. Wagner with regards to her comments 
about charging stations and infrastructure. I think if you are 
going to equate charging stations to infrastructure, then that 
means the gas pumps at traditional quick shops and filling 
stations would also be infrastructure. According to my car 
dealer friends, roughly 2 percent of the cars on the road are 
electric cars, which means 98 percent of them are gasoline and 
diesel fuel, which means if you really want to be helpful to 
the folks on the road, maybe we could find a way to make the 
gas pumps a little more energy-efficient at the quick shops. 
Obviously, tongue-in-cheek, but I think it makes the point.
    Ms. Yentel, I guess in the Biden legislation, and also 
Chairwoman Waters' program, there is no mention of the Rental 
Assistance Demonstration (RAD) program that was initiated in 
the Obama Administration, that was specifically to reduce the 
backlog of capital needs in the public housing program. The RAD 
program has leveraged private capital to repair and convert 
over 100,000 housing units.
    Do you think this program is worthwhile? Why wouldn't it be 
included in something like this, if it is?
    Ms. Yentel. The Rental Assistance Demonstration Program is 
a demonstration, and it was created in response to Congress 
disinvesting and underfunding public housing operations and 
capital repairs for many decades. So, it was an innovative way 
to find additional capital elsewhere to try to keep up with 
repairs as they were needed.
    One, I think we need to study what worked and what didn't 
in the Rental Assistance Demonstration before we expand it 
further. There are places where strong renter protections are 
embedded in the law but not always practiced in reality in 
communities. And also, as Congress considers investments in 
infrastructure, certainly they should make a $70 billion 
investment in the public housing capital to bring all of these 
units and ensure that they are habitable for the people who 
live there today and for future residents who may need them.
    Mr. Luetkemeyer. This is a program that was initiated back 
in the Obama years, and that was at least 4, 5, 6 years ago. 
So, I don't know why we haven't gotten a study done by now to 
figure out if this is a worthwhile program. I was the Chair of 
the Subcommittee on Housing and Insurance for a period of time, 
so I am familiar with the program and its effects. And it has 
always been a point of discussion about whether or not it is 
worthwhile. So, your comment about studying it is a head-
scratcher for me.
    Also, HUD generally does not do direct financing on 
construction of new homes, except for the fact that they do in 
the Housing Trust Fund. I think, Ms. Yentel, you made the 
comment with regards to the Housing Trust Fund. This program, 
to me, illustrates how little new housing HUD actually spends 
money on. Through February, the Housing Trust Fund had received 
nearly $1.2 billion in funding over the last 5 years, and so 
far has produced 485 units of completed new housing 
construction. That is an abysmal average of 97 completed, newly 
constructed units per year, at a cost of $2.7 to one, in total 
funding to newly constructed housing units.
    Explain to me why we need to continue to use the Housing 
Trust Fund to build new houses? A $2.7 million house would be a 
pretty nice house in my neighborhood.
    Ms. Yentel. No, that is not at all a fair comparison, 
Congressman. The average unit cost to build or rehabilitate a 
National Housing Trust Fund unit is $200,000 to $250,000. As 
you know, new construction takes time, and building apartments 
that are affordable to extremely low-income people can often 
take more time. There can be delays at the local level related 
to zoning, restricted zoning laws, as we have discussed in this 
hearing already.
    So, the average unit cost for a Housing Trust Fund unit is 
closer to $200,000, and more needs to be done to build these 
units faster, and the current funding level for the Housing 
Trust Fund is about $700 million. It is the largest allocation 
for the Trust Fund yet. It was just announced by HUD last week. 
It is an important resource that will be put to good use to 
build apartments for extremely low-income--
    Mr. Luetkemeyer. My time is running out--
    Ms. Yentel. --and much more is needed.
    Mr. Luetkemeyer. It is very concerning to me, when we have 
that much money spent per house, and I think you made the point 
already with regards to zoning laws, and the bureaucratic red 
tape of an agency like this, that adds costs to these homes, 
that is something that we need to take a very close look at.
    I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Texas, Mr. Green, who is also the Chair of our Subcommittee on 
Oversight and Investigations, is now recognized for 5 minutes.
    Mr. Green. Thank you very much, Madam Chairwoman. I would 
like to start my 5 minutes by recognizing what you are doing in 
the area of flood insurance. REALTORS are constantly asking me 
about this, and will we do something, and they want something 
done that will have a long-term impact. And I see that the 
proposal that you have would record relief for 5 years. I think 
that is beneficial
    It would also help us with this debt, something that we 
have been plagued with. I just appreciate what you have, 
because it would give me an opportunity to say to the REALTORS 
that there is some movement that you are part of, and I think 
this will be important to them and also to the people who 
actually buy the properties, because you need the flood 
insurance in many instances before you can acquire the 
property. Thank you so much for what you are doing there.
    I would like to talk about the Community Development Block 
Grant Disaster Relief Program (CDBG-DR), that deals with 
disaster relief. This is an important program. I was fortunate 
enough to travel with Mr. Cleaver and Chairwoman Waters to New 
Orleans after Hurricane Katrina, and we had a chance to see the 
devastation, not only in public housing, but also in an area 
known as the Lower Ninth Ward. Some of the devastation there 
was just unimaginable. You had to see it to believe that things 
of this nature could happen.
    Well, the community did not get the kind of recovery that a 
good many other places were able to receive. They were able to 
build back better, to borrow a phrase, and some of these folks 
will never build back. So, this legislation hopefully will help 
moderate-income communities after they have been devastated. 
This is something that is very important and it would create a 
permanent framework for the CDBG-DR program, Community 
Development Block Grant Disaster Relief Program.
    I think this is important, because we reinvent the wheel 
after each catastrophe. This would eliminate the necessity to 
do this. It would reduce the volume of Federal Register 
notices. These notices take time, and when you compile one on 
top of another, it takes a lot of time to get things done. 
Standardizing the rules for all of the grants, I think is 
important, because when we anticipate what will happen, it is 
good to know the rules ahead of time, and it would ensure the 
timely disbursement and closing of grants.
    So, Ms. Yentel, I would like to ask, these are some of the 
things that I believe are going to be beneficial. Give me your 
thoughts on having a codified CDBG program such as the CDBG-DR 
Program. Thank you.
    Ms. Yentel. Yes. Thank you, Congressman. We strongly 
support your bipartisan bill to permanently authorize the CDBG-
DR Program. As you know, after disasters Congress essentially 
reauthorizes that after every disaster through the 
appropriations process, which: one, takes too long for 
communities who are waiting for urgently needed resources to be 
able to rebuild and recover; and two, it doesn't have the kind 
of requirements in it that it should. And so the legislation 
that you have advanced, and that we strongly support, would 
permanently authorize it and also would require that local 
communities distribute those funds equitably, equitably split 
between infrastructure and housing, equitably split between 
homeowners and renters, and there are real racial equity 
implications to this as well. For example, after Hurricane 
Harvey, we know that a lot, the majority of CDBG disaster 
recovery funds went to higher-income homeowners and not to the 
lower-income Black and Brown renters who needed those resources 
the most.
    So ensuring that there are equitable distributions and 
split so that enough money is going to housing and going to 
low-income renters will go a long way towards more equitable 
recovery in communities hit by disasters.
    Mr. Green. Thank you for your comments. Mr. McAfee, do you 
find favor with the program? Probably a simple yes, with about 
10 seconds of a response is all that we have left.
    Mr. McAfee. Yes, I do.
    Mr. Green. I greatly appreciate your sentiments in such a 
short fashion.
    Thank you very much, and I yield back, Madam Chairwoman.
    Chairwoman Waters. Thank you very much. The gentleman from 
Kentucky, Mr. Barr, is now recognized for 5 minutes.
    Mr. Barr. Thank you, Madam Chairwoman, and as I listen to 
the conversation it just occurs to me that nobody here seems to 
recognize that we have maxed out the credit card, trillions and 
trillions and trillions of dollars in borrowing, and we still 
say there is no problem, just spending money like it grows on 
trees. It just boggles my mind.
    I recently received a disturbing email from a constituent 
that demonstrates the breathtaking shortfalls of this multi-
trillion-dollar tax-and-spend, big-government, jet-exploding 
strategy that the Biden Administration is pursuing. My 
constituent owns 14 restaurants and he employs hundreds of 
workers in my district. And a few days after receiving their 
third economic impact payment of $1,400, 85 of his 267 
employees walked off the job. I want to repeat that--85 of his 
employees, who have a job, they were employed, they walked off 
the job. And to save everyone the math, that is 32 percent of 
his entire workforce that quit because of the American Recovery 
Plan. They quit because of the ARP. With $1,400 for themselves, 
their spouses, and dependents, they felt they no longer had to 
work.
    Now, he is having big trouble backfilling those roles 
because the job market is so tight. The NFIB recently reported 
that 40 percent of small businesses have job openings that they 
cannot fill right now, and he is one of the victims. And his 
employees are victims now because they no longer have a job, 
because the government, and Congress specifically, has told 
those people to go home and not work.
    And he is now having trouble even operating his business. 
My constituent told me he didn't see a similar pattern with the 
first economic impact payments under the Coronavirus Aid, 
Relief, and Economic Security (CARES) Act, back when employees 
were truly struggling and they really needed the money and when 
restaurants were forced to actually shut down.
    I know that many of my colleagues on both sides of the 
aisle are hearing similar stories in their districts, and it 
shows the consequences when Congress and the Administration 
ignore basic economics and plow through trillions of dollars in 
poorly targeted spending, even as the economy is recovering.
    Mr. Riedl, in your research have you encountered similar 
anecdotes? And since we are talking about infrastructure and 
housing, is paying people not to work helping those people's 
prospects for housing security in the long run?
    Mr. Riedl. Thank you for the question. The history of anti-
poverty programs has shown that you have to be very careful 
with incentives. The old AFTC programs were notorious for 
having huge incentive effects against working because the 
phase-out rate was so steep. Even people on the right and left 
agree that was poorly designed.
    In terms of unemployment benefits, the average unemployment 
benefit right now is about 100 percent of the wage 
replenishment for the average unemployed worker. Now, that is 
not bad when the unemployment rate is 14 percent and we are 
paying people to stay home and you don't want people to work. 
The danger is that as soon as the economy recovers, as it is 
starting to, as soon as people start to go back to work, as 
soon as people get their pandemic shots, all of a sudden, when 
you want people to go back to work, having that 100-percent 
wage replacement from unemployment benefits will create a 
cliff.
    I don't think it was a big problem when we didn't want 
people to work, but very quickly, I think we are going to see 
over the next couple of months, it is going to become a problem 
when the economy reopens and individuals see that the marginal 
additional wage of working is at least, in the short term, 
almost zero.
    Mr. Barr. Just to reclaim my time, and I only have a minute 
left, but look, I think that the best way we can help people 
have long-term, sustainable, non-subsidized housing is to make 
sure that they have wage growth, and increasing taxes and 
reversing the positive benefits of the Tax Cuts and Jobs Act, 
where we saw, in the first 2 years after the tax cuts, real 
median household income increased $4,900, employment surged, 
especially among the long-term unemployed, poor and minorities' 
wealth for the bottom 50 percent of households advanced 3 times 
as fast as the top 1 percent, average median income increased 
6.8 percent. Why would we reverse that when we were actually 
helping people achieve their own housing and to be able to 
afford their own housing without relying on the government?
    It just seems totally counterintuitive to me that we would 
reverse the progress we have made, that actually helped people 
in the lower echelons of the income scale. And I yield back.
    Chairwoman Waters. Thank you very much. Just a moment here 
before I call on the next member.
    I want to clarify Mr. Barr's statement. Congress has told 
no one to go home and not to work. I don't think he really 
meant that.
    With that, the gentleman from Missouri, Mr. Cleaver, who is 
also the Chair of our Subcommittee on Housing, Community 
Development, and Insurance, is now recognized for 5 minutes.
    Mr. Cleaver. Thank you very much, Madam Chairwoman. Mr. 
Riedl, did I pronounce your name correctly?
    Mr. Riedl. It is ``Riedl,'' but you can call me anything.
    Mr. Cleaver. ``Riedl.'' Thank you so kindly. I have to just 
respond. I am from Missouri, as the chairwoman just announced, 
as is she, but as you had said earlier, you talked about the 
delays in a lot of projects. There is something called the 
MetroLink in St. Louis, and there were some delays in MetroLink 
because it was going through a slave cemetery, an African-
American cemetery after we began slavery, including the burial 
site for Harriett Scott, the wife of Dred Scott. So, there was 
a delay.
    Help me understand what we could have done, other than stop 
slavery before 1619, to prevent that from happening?
    Mr. Riedl. Oh, certainly some delays are inevitable, and no 
one is assuming that we can build the Empire State Building in 
400 days all over again. Some delays can work.
    I guess the point is, Canada can do it in 1 to 2 years. The 
EU can do it in 3\1/2\ years. I think we can identify these 
things and come to solutions quicker than 7 years, 17 years, or 
25 years. Part of the reason we have delays is litigation. The 
issue you just brought up is one that can be dealt with 
administratively rather than having these statements come out 
and then relying on the court system to litigate everyone who 
has an issue with the environmental impact statement. You bring 
up a very common-sense issue with that line, that could have 
been addressed administratively in a lot less than 7 years.
    Mr. Cleaver. Okay. I don't want to be argumentative, so 
thank you very kindly.
    The ranking member, my classmate, said, ``The Biden plan is 
not a housing bill. More funding will not solve the problem 
associated with the housing supply shortage or our homeless 
problems in this country. We need to rethink how we provide 
affordable, suitable housing for all members,'' and I agree 
with him, so that is why if you go through and read the 
President's plan, you will find that when we put these programs 
together it brings local leaders, residents, and other 
stakeholders on board to develop community transformation plans 
that extend beyond physical assets. And I am very proud of the 
fact that in my 8 years as mayor, Kansas City actually became 
the first City in the country to go into a HOPE VI Program with 
HUD, which is severely distressed public housing projects. And 
it focuses on transforming neighborhoods.
    So I would like to ask any or all the panelists if they 
could do a one- or two-word answer, do any of you believe that 
America can adequately respond to the affordable housing crises 
without increased Federal investment? Anybody?
    Ms. Waggoner. Thank you, Congressman Cleaver. Absolutely, 
we cannot do it without more resources. It is necessary.
    Mr. Cleaver. Thank you. Does anyone believe that we can do 
it without resources?
    Ms. Yentel. No, absolutely not. We can't.
    Mr. McAfee. We can't. And we are not a poor nation, so we 
need to stop acting like we are.
    Mr. Cleaver. Well, maybe we ought to just shut this hearing 
down and go out and start trying to get this housing bill, 
because--I don't have an economic background, but just being a 
preacher, I can't reform the nursery down in the basement 
unless I spend some money. People just will not do that stuff 
for free. Anybody's church get people to rebuild a new church 
for free? Just raise your hand. Or a synagogue? A mosque?
    Okay. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Texas, Mr. Williams, is now recognized for 5 minutes.
    Mr. Williams of Texas. Thank you, Madam Chairwoman. I just 
want to reinforce something my colleague, Mr. Barr, mentioned. 
He is right when he talked about unemployment, because when 
people are on paid, enhanced unemployment, they tend to not 
work. I can tell you, I have an economics background, and that 
is the truth. So that means that we can't be raising taxes on 
businesses. I can tell you, I am a Main Street person, I live 
on Main Street America. And when we do that, Main Street 
businesses will hire less people. They will make fewer jobs 
available. And you won't have affordable housing if Main Street 
and businesses are punished through higher taxes. The 
government can create a job but the government can't create net 
worth, which is what the private sector does.
    In a recent study by the National Association of 
Manufacturers, the tax increases that have been been proposed 
to help pay for the infrastructure plan would cost over 1 
million jobs in the first 2 years alone. Regardless of how many 
jobs that this temporary injection of money may create, it is 
not sustainable to think we can consistently maintain 
infrastructure by taxing corporations. You can't tax 
corporations enough to pay for this.
    Instead, we need to be leveraging the private sector to 
partner with the Federal Government to help reduce the cost of 
these projects, because the more the private sector is 
involved, the less the Federal Government needs to spend. And 
we all know, and I think we all agree that when you deal with 
the private sector, projects get completed quicker, they get 
completed cheaper, and they get completed better and have 
better quality since there is an incentive to maintain the 
projects, not an incentive to not go to work.
    So, Mr. Riedl, can you discuss some of the benefits, and 
you have done it earlier, of public-private partnerships?
    Mr. Riedl. Thank you, Congressman. Again, going back to the 
Congressional Budget Office, the Congressional Budget Office 
has concluded that the private sector is more efficient at 
infrastructure investments than the public sector. They are 
more responsive to market signals, they can do it at a lower 
cost, they are more effective, they are quicker, and when the 
government is doing the investing, you see the claw-back, which 
is the crowd-out, which is the fact that when the Federal 
Government is doing it, State and local governments respond by 
doing less, almost dollar for dollar, and the private sector 
responds by doing less.
    So, the Congressional Budget Office has said lower costs, 
faster, more efficient, more market signals equals double the 
return on investment as when the government does it.
    The issue is not, do we rebuild this country, do we make it 
stronger, of course, we do. The question is, do we do it, and 
how effectively?
    Mr. Williams of Texas. Okay. Thank you. And it does work in 
Texas, too. I can tell you that.
    Secondly, I have long been supportive of an infrastructure 
package, as we all are. When the Federal Government invests in 
roads and bridges, the economic activity in communities gets 
more efficient. I have even been supportive of increasing the 
scope of traditional infrastructure to include broadband, which 
we need badly. Because as we have learned during the pandemic, 
it is a necessary component to participate in the 21st Century 
economy.
    But this proposal tries to include every progressive 
priority in the bill by calling anything--anything--
infrastructure. Included in this bill are provisions to bolster 
labor unions by eliminating the right-to-work laws in 
Republican-controlled States. There are the Green New Deal 
mandates that we always hear about, to retrofit homes to make 
them more energy-efficient, instead of dealing with the supply 
issues that are prevalent all across this country today. And 
there is a new $10 billion Civilian Climate Corporation to 
advance environmental justice, which sounds a lot like a 
handout to our President's progressive allies. None of these 
have anything to do with the infrastructure deal that would 
truly benefit our country. Infrastructure, to me, is what you 
can touch. It is not what you can feel in your heart.
    So, Mr. Riedl, I would like to give you the opportunity to 
highlight any other extraneous provisions in the infrastructure 
proposal, and get your opinion on what we should be focused on 
for a targeted infrastructure bill that could provide economic 
growth and real jobs.
    Mr. Riedl. Well, I think it is telling that the single 
largest line item proposal in this bill is the Medicaid long-
term care proposal. Look, I like long-term care, but I don't 
think $400 billion of that is infrastructure. Infrastructure, 
as has been defined by every dictionary, is physical structures 
that help make the economy more productive.
    Additionally, there are a lot of corporate welfare grants 
in this bill that I wouldn't call infrastructure. We are 
bringing back a lot of the approaches that we have been trying 
to move away from for the last 10, 20, 30 years, where we just 
kind of give grants to corporations that will do government-
approved projects. This is very ineffective. Corporations can 
raise their own money.
    Mr. Williams of Texas. Madam Chairwoman, I yield back.
    Chairwoman Waters. Thank you. The gentleman from Colorado, 
Mr. Perlmutter, who is also the Chair of our Subcommittee on 
Consumer Protection and Financial Institutions, is now 
recognized for 5 minutes to talk about the Housing is 
Infrastructure Act.
    Mr. Perlmutter. Thanks, Madam Chairwoman. This is a great 
hearing. We have a lot of different perspectives, and everybody 
is getting to share them.
    I do have a couple of questions for Ms. Waggoner and Ms. 
Yentel, but I want to make a couple or three points first. One 
is a response to my friend, Mr. Barr. He was talking about some 
restaurant that had a lot of its employees leave the 
restaurant, and he was complaining about the American Rescue 
Plan. Well, at 10:42 this morning, just before Mr. Barr spoke--
I have been working with a restauranteur in Colorado who had to 
close his restaurants for the last year, during this pandemic. 
And I have been working with him on the American Rescue Plan in 
the restaurant section of that bill. He writes, ``Hey, Ed. I 
wanted to let you know that Coperta--one of his restaurants--
reopened last Saturday, and Beast + Bottle is slated to reopen 
this Friday. Thank you for all your help and communication with 
this endeavor.''
    Then he goes on and says a lot of nice things about me, but 
I won't read that. He says, ``I wanted to propose an idea and 
help pay it forward. If I can ever be a resource to you for any 
type of roundtable, please think of me.'' So to my friend, Mr. 
Barr, at least in Colorado, the restaurant owners really 
appreciate the American Rescue Plan.
    Now, Mr. Riedl, you were very kind in mentioning how many 
jobs were brought on board last month, I think you said 
916,000. Well, all I can say is thank goodness for Joe Biden 
and Kamala Harris, because at the end of the Trump 
Administration, we lost, initially, 21 million jobs. We were 
down 11 million jobs from this time last year. And thank 
goodness we have a Democratic White House, a Democratic Senate, 
and a Democratic Congress to get this economy moving again.
    The last thing I will say and then I will get to my 
questions is, Ms. Waggoner talked about infrastructure being, 
``sorely needed.'' Those were her words. And Mr. Lucas talked 
about competitiveness. And the real purpose of this is to put 
people back to work and allow our country to be competitive 
with the rest of the world for the next 50 years, and 
especially China, whether it is roads and bridges, broadband, 
electrical grid, water system, housing--which is what we are 
talking about in this bill--schools, and manufacturing.
    Ms. Waggoner and Ms. Yentel, last Congress I introduced a 
bill called the Green Neighborhoods Act. This was an updated 
version of the Green Act, which Enterprise helped me write back 
in 2008, and which passed the House twice. One component of 
this legislation is focused on how to incorporate energy 
efficiency into the Department of Housing and Urban Development 
(HUD) assistance and lending programs. Specifically, the bill 
would require HUD to offer incentives for new construction and 
retrofitting existing properties that meet certain green 
building standards.
    Ms. Waggoner and Ms. Yentel, is there a set of green 
building standards you think HUD should adopt across all of its 
programs?
    Ms. Waggoner. Thank you for the opportunity. Yes. Green 
Communities, which is in 30 States across this country, all of 
those things that we need to prioritize are written there. And 
we should do it as a practice, because I always tell people you 
either pay for it now or pay for it later. If we don't pay for 
green infrastructure and resilience, we will pay for it on the 
back end when we do have disasters and/or people are 
experiencing health or other issues, because they don't live in 
a housing building that is healthy and green.
    Mr. Perlmutter. Thank you. Ms. Yentel?
    Ms. Yentel. I agree with Ms. Waggoner, and I just would 
say, though, at the National Low Income Housing Coalition, we 
also strongly support the Green Communities standard that 
Enterprise created and implemented, that has proven effective.
    Mr. Perlmutter. How would writing the standards help 
grantees, and what role would technical assistance from HUD 
play in the process? I will start with you again, Ms. Waggoner.
    Ms. Waggoner. We have heard a lot about government partners 
being more efficient and effective as key to success with these 
resources, so advisory services, we do that across the country, 
to aid governments in absorption of such practices and 
resources. And so aid is needed to ensure that this money is 
spent well and serves its purpose.
    Mr. Perlmutter. Thank you. Ms. Yentel, I have 10 seconds.
    Ms. Yentel. I think with any kind of program like this 
local communities need resources to build capacity and the 
understanding of how to utilize them best.
    Mr. Perlmutter. Thank you very much, Madam Chairwoman. I 
yield back.
    Chairwoman Waters. Thank you very much. The gentleman from 
Arkansas, Mr. Hill, is now recognized for 5 minutes.
    Mr. Hill. Thank you, Madam Chairwoman. We simply have to 
remove all of the energy drinks from Congressman Perlmutter's 
office. We just can't take it anymore, but we appreciate your 
enthusiasm. Thanks for your leadership on these issues.
    And, of course, I am really pleased to be a part of this 
hearing. I hoped, Madam Chairwoman, that this would be the 
beginning of a discussion, committee by committee, that was 
bipartisan, including a bipartisan consensus on just what the 
definition of ``infrastructure'' is. But as we have learned in 
recent days, ``infrastructure'' means everything to every 
Member of the House and Senate, and when ``infrastructure'' 
means everything, it can mean nothing. So, we really have to 
focus on targeting our debates in the Congress.
    Second, I wish we were not using, again, budget 
reconciliation as a way to cram down on the American people an 
enormous tax increase across the economy as we are trying to 
come out of this pandemic, get people back to work, and new 
government regulatory mandates, and again, put through what is 
this broad wish list that goes way beyond infrastructure.
    This is not something that is just a Republican view. There 
are detractors. I think it has detractors on both sides of the 
aisle for using large tax increases to fund a very partisan 
wish list.
    With that said, I was looking at the Committee for a 
Responsible Federal Budget, and even they outlined that only 
about 30 percent, in a generous definition, would be considered 
transportation-type infrastructure, which is what President 
Biden campaigned on and what Congress has talked about time and 
time again.
    I don't need to remind anybody that we have already 
invested in the economy in rebounding our economic growth and 
killing the virus, $4 trillion to fight the pandemic and make 
significant impacts in social policy, and that was before the 
Congress passed the American Rescue Plan, and that was signed 
into law with trillions of dollars more. So infrastructure--I 
think we could do a much better job of focusing here, 
targeting, and making it bipartisan.
    The big picture bill that President Biden has talked about, 
although we have seen no details and no written legislative 
text, but the memorandum outlining his goals for infrastructure 
had a special carve-out for energy, including electric vehicles 
and vehicle charging stations. And this is not bad per se, but 
I think these funds could be better used within the energy 
sector to go towards projects that are much more complex, much 
more expensive, have much less private sector already rapid 
investment, and one of those that would be benefitted, in my 
view, is nuclear energy.
    I have long been an advocate for the greater use of nuclear 
energy. Ranking Member McHenry and I recently introduced the 
International Nuclear Energy Financing Act, which would bring 
back financing for nuclear power through the World Bank. This 
legislation seeks to flip the script on the narrative and 
encourages U.S. representatives at the multilateral development 
banks, including the World Bank, to advocate and push for 
nuclear energy projects and solutions around the world. Years 
of climate talks have resulted in handshakes and a lot of photo 
ops, but little action, and it is past time to advocate for 
truly emission-free, carbon emission-free nuclear power.
    Recently, I published an op-ed in The Hill, where I argued 
for a renewed focus on this form of power and its consistent 
low carbon product. In my view, nuclear power is a better 
alternative to many other renewable type choices because it is 
a large, solid, baseline, 24-hour-a-day, 7-day-a-week, 
reliable, carbon-free power source. And, in fact, in our 
country's nuclear plants, 92.3 percent operate 363 days out of 
365 days, without any work stoppages, and that is the kind of 
baseline power that benefits American competitiveness.
    So, Mr. Riedl, I wanted to ask you a question, to get your 
perspective. As nuclear energy provides 52 percent of our 
carbon-free baseline power for electricity in 2020, making it 
our largest domestic source of clean energy, would reducing 
costs, increasing competitiveness of nuclear energy to the 
forefront of this legislation make American more energy 
independent and competitive?
    Mr. Riedl. Absolutely. Nuclear power is cleaner, it is 
cost-effective, and it is better for the environment. If we 
really want to decarbonize, moving to nuclear, I think, should 
have to become part of the solution. Solar and wind are 
helpful, but they are not there yet. I think nuclear has to be 
part of the solution.
    Mr. Hill. Thanks so much, and, Madam Chairwoman, I yield 
back. Thanks for the time.
    Chairwoman Waters. Thank you. The gentleman from Illinois, 
Mr. Foster, is now recognized for 5 minutes.
    Mr. Foster. Thank you, Madam Chairwoman. First off, I would 
just like to second my colleague, Mr. Hill's, enthusiasm for 
nuclear power, which is not really the subject of this hearing, 
but also to point out that the projects that we are funding in 
nuclear will provide not only baseload power but the ability to 
follow the day-night [inaudible].
    However, what several Members have brought up here in 
different forms is the dangers of politically allocated 
capital. A famous example of this was the Republican proposal 
for a bridge to nowhere, which many of you may remember, which 
was the half-million-dollar federally funded bridge to an 
island in Alaska with 50 residents. The obvious danger of 
building, for example, subsidized housing in areas where the 
jobs have gone away and they are not coming back, is a real 
danger, a point that my colleague from Oklahoma made earlier.
    And for this reason, the National Investment Authority Act, 
the infrastructure bank, has numerous safeguards to prevent 
politically driven misallocation of capital into projects that 
really serve no long-term economic purpose. So I guess, Dr. 
Omarova, or whomever would like to pick it up, could you 
describe some of the safeguards built into the infrastructure 
bank to ensure that taxpayer support goes into economically 
useful projects?
    Ms. Omarova. Thank you so much. Yes, I absolutely agree it 
is extremely important to make sure that the National 
Investment Authority, or any infrastructure bank for that 
matter, makes decisions based on what the market needs and what 
the people need, rather than what political incumbents need.
    The NIA would basically be tasked with developing a 
strategic view of what the economy really needs, starting on a 
trial basis, originally geographically but also in terms of 
communities, and to channel capital right into those pockets 
rather than according to the whims of some local politicians. 
And the NIA will also be working with private investors and 
private partners as well as with local communities and public 
authorities. So, incorporating market signals into the NIA's 
activities is a very important safeguard in this respect. I 
also propose the creation of a public interest council, kind of 
a watchdog over the NIA's allocation decisions.
    Mr. Foster. Thank you. Does anyone else have any comments 
on this, because it is something that in Congress, we have to 
watch very carefully, to make sure that the public gets a good 
return on its investment in this area.
    Ms. Yentel. I would add that the formula for the National 
Housing Trust Fund is also very well-targeted to ensure that 
these resources go to the communities with the greatest needs. 
The formula for the Housing Trust Fund is based on the number 
of communities that have a limited supply of homes affordable 
to the lowest-income people, the number of communities with the 
highest percentage of extremely low-income renters, renters who 
are cost-burdened. So, it is very precision-focused in ensuring 
that the funds go to the communities who have the greatest 
needs, to build more apartments affordable to the lowest-income 
renters who live there.
    Mr. Foster. There are really two variables here. There is 
the greatest need, and then there is the future economic 
promise, and so trying to figure out how to balance those two 
factors to some kind of signal, is a challenge that I think we 
encounter very often in Congress when we are structuring these.
    One of the barriers to housing for the underhoused and 
underbanked is the lack of a digital footprint to establish 
credit or even a digital identity. We have seen that the 
emergency assistance programs that Congress has established 
have become a magnet for online fraud.
    Affordable broadband internet connectivity for all 
Americans seems to be one of the areas of bipartisan agreement 
for infrastructure investment, but that really doesn't do you 
much good in this area if you don't have the digital 
infrastructure for a person who is marginally banked to really 
establish their identity and prove who they are online. In 
response to that, some States have begun providing so-called 
digital driver's licenses and other mechanisms for people to 
assert their identity online, and have seen a tremendous 
benefit to the marginally banked and the underbanked for this.
    Does anyone have any comments on the very large literature 
that sort of backs this up, and what the promising initiatives 
are?
    Ms. Omarova. If I may, this is a very important issue, and 
we do need to invest in digital infrastructure. It is not what 
you touch, it is what serves the needs of the people and the 
economy.
    Chairwoman Waters. Thank you very much. I would like Mr. 
Stivers to indicate who is next from his side of the aisle. If 
not, we will move on until they determine who will be speaking 
next, and we will recognize the gentleman from Ohio, Mr. 
Davidson, for 5 minutes.
    [pause]
    Chairwoman Waters. The gentleman from Texas, Mr. Taylor, is 
now recognized for 5 minutes.
    Mr. Taylor. Thank you, Madam Chairwoman. Can you hear me?
    Chairwoman Waters. Yes.
    Mr. Taylor. Thank you so much. I appreciate this hearing. 
This is clearly a huge subject. It is actually a $2 trillion 
subject, and so I think it really is important that we sit down 
as Members of Congress and think about the economic impacts of 
what we are about to do.
    I would like to, if I could, Madam Chairwoman, submit into 
the record an article from Goldman Sachs published on April 
1st, entitled, ``Top of Mind Reflation Risk.''
    Chairwoman Waters. Without objection, it is so ordered.
    Mr. Taylor. Thank you, Madam Chairwoman.
    This is a chart from that report. I don't know if you can 
see it on the screen, but it shows how much the Federal 
Government has injected in terms of fiscal stimulus relative to 
slack in the economy. In 2020, last year, we actually injected 
5\1/2\ times the slack in the economy, and already this year, 
we have injected 6 times the slack in the economy. So, our 
stimulus is the most aggressive stimulus ever tried in the 
history of our country. This chart will show you that 
previously, in 2009 and 2010, we were injecting between 1 and 2 
times stimulus in 2009 and 2010.
    So, this is an extraordinary level of stimulus that has 
already been injected, so it is already here. Forget this $2 
trillion bill that we are talking about today. This is already 
what has passed, already what is in the hopper, so to speak.
    I am deeply concerned that we are overheating our economy. 
We are seeing extraordinary increases in prices across-the-
board. And, too, I am going to read a Reddit blog, but look at 
this: Steel up 145 percent, lumber up 126 percent, oil prices 
up 80 percent, soybeans up 71 percent, copper up 50 percent, 
silver up 38 percent. I heard from employers across my 
district, all kinds of industries, saying they are having a 
hard time finding labor, they are seeing prices go up, they 
have orders with very long times to fill, long lead times. I am 
very concerned. We have already overheated the economy. There 
are many indications we already have.
    Mr. Riedl, could you speak to what is going to happen with 
what we have already done, and if we pour $2 trillion more, 
literally gasoline on the fire, what would that actually mean? 
How does that end up?
    Mr. Riedl. Thank you, Congressman. I think going into this 
year, the Congressional Budget Office said that the output gap 
was about $400 billion. Then, Congress responded with a $1.9 
trillion bill, which was nearly 5 times the output gap. So, 
unless you are assuming that there is pretty much no 
multiplier, you have more than closed the output gap. In that 
context, anything you do now, if you do another $1 trillion, $2 
trillion, that gets spent this year, you already are going to 
be hitting your maximum output. There is only so much you can 
do, which means at that point you get a little overheating, and 
ultimately you have prices rise, you get inflation, and you get 
a misallocation of resources, unless the Federal Reserve can 
start to reverse course and basically peg banks to hold as much 
money in banks as possible, start paying reserves. If that is 
the case, then the stimulus itself is self-defeating. All you 
have done is put money out there and then have the Federal 
Reserve pay banks to keep as much as you can in the bank. You 
are adding to the deficit with no economic positive impact at 
that point.
    Mr. Taylor. Right. And think the lesson is you can take up 
the slack, but once the slack is gone, there is nothing left to 
do. You are just creating tremendous dislocation within the 
economy. And I think you make a great point that this could 
potentially be self-defeating. We may have already done it. The 
indications I have, from my time at home, in Texas, is that the 
economy is heating up. I am not saying that it is perfect. 
There are still people out there who are hurting, and I don't 
want to sound like I don't care. I absolutely do. But I think 
that our economy is heading in the right direction. I believe 
that we have overstimulated it, and this bill is going to 
exacerbate that overstimulation, and I think it is going to 
lead to inflation. I think we need to really step back and 
think carefully about what we, as a Congress, are going to do 
before we do it.
    Madam Chairwoman, thank you for calling on me early. I 
yield back.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Ohio, Mrs. Beatty, who is also the Chair of our 
Subcommittee on Diversity and Inclusion, is now recognized for 
5 minutes.
    Mrs. Beatty. Thank you so much, Madam Chairwoman, not only 
for allowing me 5 minutes, but certainly for hosting this very 
important and on-time committee hearing. We have a lot of work 
to do, but I am actually going to take 10 minutes of my time to 
applaud you, not only for your leadership, but for 
understanding that we have a job, a role, and an obligation as 
we craft and write legislation, to also stand up for the 
people. And your work on housing, your work on infrastructure 
has certainly put you in a space that the nation is watching. 
And I want to just say thank you for that.
    With that said, Ms. Waggoner, my first question--and I am 
going to try to get through two questions, so if I am rushing, 
it is only because I am racing against the clock. Ms. Waggoner, 
I am going to start with a question for you. Based on your 
organization's work, actually in my district as well as, I 
know, you work across the country, the shortage of housing that 
we are experiencing in my district in Columbus, Ohio, is 
playing out not only in my district, but in cities across this 
country. Housing just cannot keep pace with the demand, which 
results in, as you know, higher housing prices.
    Prior to the housing crisis of 2008, Columbus, Ohio, was 
producing 1,000 housing units per month. Despite the surge in 
population growth in Columbus over the past 10 years roughly 
32,000 residents per year, our housing supply has just been not 
able to keep up the pace, producing only about 400 units per 
month prior to the pandemic.
    Ms. Waggoner, why isn't the free market filling this 
obvious need?
    Ms. Waggoner. Thank you, Congresswoman Beatty. It's good to 
see you again today. I would say that what we need to 
recognize, in Ohio and other places, whether it is suburban, 
urban, big city, or small town, is that we haven't built the 
housing that people can afford at the scale that is needed, and 
the private sector can't do it alone. It needs public resources 
to balance and invest in that infrastructure.
    So to your point, the shortage has to do with the lack of 
resources to actually build the type of housing that is needed 
by Americans.
    Mrs. Beatty. Thank you so much for that. I am going to go 
to Ms. Yentel now. You are probably aware of this, but created 
in, I think it was 2008, the National Housing Trust Fund is the 
first new housing program aimed at not only building but 
rehabilitating and preserving and actually operating rental 
units for housing for extremely low-income people, since, I 
believe, about 1974.
    Well, last year HUD awarded nearly $700 million to States 
around the country to invest in the building and preserving of 
affordable housing throughout this country. Since that program 
started awarding funds, just in 2015, the State of Ohio alone 
has financed the building or preserving more than 3,000 units 
of affordable housing.
    I have a bill, and that bill is the GROW Affordable Housing 
Act, which, if enacted, would actually result in nearly 5 times 
more funding for the National Housing Trust Fund each year than 
the current levels.
    So I guess I want you to describe to us the impact that 
roughly $50 billion over 10 years would have on the National 
Housing Trust Fund?
    Ms. Yentel. Sure. Thank you, Congresswoman, and thank you 
for your strong support and leadership of the National Housing 
Trust Fund. The Trust Fund is an essential and proven resource 
from the Federal Government that provides block grants to 
States to, as you say, build, preserve, and operate homes that 
are affordable to extremely low-income people. Extremely low-
income people are the only segment of the population for which 
there is an absolute shortage of homes affordable and available 
to them, and the private market, on its own, cannot build and 
operate homes that are affordable to them because the rent that 
they can pay doesn't cover the costs to build and maintain 
those properties. So, subsidies are necessary, and the National 
Housing Trust Fund is a proven way to achieve that goal.
    So expanding the Housing Trust Fund, whether through your 
legislation or through the Housing is Infrastructure Act, to 
over $40 billion a year, a one-year allocation of $40 billion 
would mean over 200,000 apartments affordable to these 
extremely low-income renters built. It would mean over 260,000 
jobs created. And as you say, these homes [inaudible] 
throughout the country and they are housing seniors, people 
with disabilities, veterans, survivors of domestic violence, 
people who were chronically homeless, and youth aging out of 
foster care. This is an essential resource housing people 
[inaudible].
    Mrs. Beatty. Thank you so much. My time is up, but that is 
a great deal to all my colleagues.
    Chairwoman Waters. Thank you. The gentleman from Ohio, Mr. 
Davidson, is now recognized for 5 minutes.
    Mr. Davidson. I thank the Chair, and I thank my colleagues. 
I appreciate my colleague from Ohio and her concern for 
affordable housing in our great State.
    I want to highlight a couple of things. There is no 
question that affordable housing and infrastructure are both 
important issues that deserve attention here in Congress and in 
our committee. Unfortunately, conflating the two issues is not 
an entirely effective way to a sustainable solution for either 
one. Rather, all that is happening is that my Democratic 
colleagues are redefining the word, ``infrastructure.'' They do 
this to justify government spending anywhere they see fit, and 
then they apply their antiquated solutions, comprised of 
federally managed housing programs.
    As John Maynard Keynes, a favorite economist of big 
government advocates, once aptly said, ``The difficulty lies 
not so much in developing new ideas as in escaping from old 
ones.'' While I disagree with many of his theories, I certainly 
agree with this quote.
    For about a century, Washington has been married to the 
idea that the more money that government spends, the more the 
economy flourishes. I do hope that one day Washington can get 
out of this mindset and stop compounding one problem after 
another by running up our deficit and destroying the value of 
the U.S. dollar and growing the wealth gap, which is exactly 
what this Biden infrastructure does and would do.
    So, Mr. Riedl, is a community generally better off if the 
government owns and operates the housing, or is the community 
doing better when there is private investment in the economy?
    Mr. Riedl. I think private investment is better when it is 
available, and housing, and I think certainly public housing, 
for all of its laudable goals, has had a lot of challenges with 
breakdowns and poor management. We are hearing about the $70 
billion needed in order to bring it up-to-speed. It is often 
built in parts of town that don't have the jobs that we want 
and sometimes not close to public transportation.
    I think private infrastructure, privately built housing 
often is cheaper, it can be faster, there are more incentives, 
and I think it is better for the individuals. And the 
Congressional Budget Office says private infrastructure 
spending is twice the return as public infrastructure spending. 
We all want nice housing. We all want infrastructure. The 
question is, how do we do it, how do we get the most bang for 
the buck?
    Mr. Davidson. Thanks for highlighting that. I appreciate 
some of the things you have highlighted today about part of the 
barriers to investment that private investment are the expense, 
the regulatory hurdles, things like that, where you want to get 
the investment made in the right parts of the community.
    But one of the other barriers that helps people--you talk 
about escaping failed ideas or bad ideas. Unfortunately, a lot 
of times our social safety net turns into a snare. People stay 
trapped and shackled in bad programs because of benefit cliffs, 
in particular. Could you highlight how benefit cliffs keep 
people in a failed system?
    Mr. Riedl. Absolutely. Again, this goes all the way back to 
Aid to Families with Dependent Children (AFDC), where, at its 
extreme, if your income goes up by a dollar, your benefits go 
down by a dollar. So there is no marketable gain from working. 
Even programs today, from the earned income tax credit (EITC) 
to child credit to public programs, collectively have huge 
benefit cliffs. Casey Mulligan from the University of Chicago 
has shown that the cumulative effect of these programs--when 
you earn another dollar, your benefits can drop 80 to 85 
percent. People are smart. They notice that. They respond to 
incentives. Even in housing programs, there can be dangers that 
if your income rises enough, you might lose a lot of your 
benefits there.
    And so I think programs have the best intentions, but the 
phase-out cliffs can be steep enough that you actually trap 
people in poverty rather than fully help them out as much as 
needed.
    Mr. Davidson. Thank you for that. I wish I had more time, 
but just as an employer, before coming to Congress, we 
experienced people turning down promotions in jobs because they 
were worried they would lose a benefit.
    We have a bill called the People CARE Act, that would 
create a bipartisan, four-four commission where the commission 
couldn't cut a benefit, couldn't launch new ones, but you could 
redesign programs. And the Congress, at the end of that 
recommendation by the commission, would simply vote yes or no 
on the overall package. One of the things that I think would be 
certainly agreeable is that we would end benefit cliffs.
    The last thing I will say is, how does this massive 
inflation grow the wealth gap? I think Larry Summers is onto 
something by sounding the alert, and he is a guy with whom I 
wouldn't commonly agree.
    Thanks, Madam Chairwoman, and I yield back.
    Chairwoman Waters. Thank you. The gentleman from 
California, Mr. Vargas, is now recognized for 5 minutes.
    Mr. Vargas. Thank you very much, Madam Chairwoman. Thank 
you very much for holding this hearing. I think it is very, 
very important, and I appreciate it.
    Redesigning infrastructure--I think we always redefine 
infrastructure, and we should. I think it is what do we do to 
invest smartly for the future. Obviously, infrastructure before 
used to mean horses. It meant horses, anyway, so you could ride 
out to the West. It is a whole bunch of different things. The 
Republicans say it is something you can touch. Well, there is a 
whole bunch of stuff, of course, in this package that are 
things you can touch, for example, we have roads, bridges, 
rail, broadband, electrical grid.
    And I hope I don't hear from Texas anymore telling us how 
great they are with everything, when they couldn't keep the 
electricity on, or they couldn't keep their water on, because 
they didn't invest. And they keep telling us, ``Oh, that is not 
the way we do it in Texas.'' Well, I can tell you, in 
California we do not have to melt snow in the bathtub so we can 
flush the toilet. That is what they had to do. So please, 
people from Texas, don't tell us how great you guys are. Just 
stop that, okay?
    But they have this notion that we are going to do this 
through reconciliation. Don't do that. They said, ``Don't do 
that.'' Like they did. They gave the biggest tax giveaway to 
the wealthiest Americans [inaudible].
    But the truth of the matter is, we need this, and it is a 
great investment. And we do have to invest smartly.
    Now one of the things that we have been talking about 
[inaudible] the focus for us is housing, and I am very 
concerned about that, especially for Native Americans in Tribal 
areas. And so could I get someone to comment on that, because 
there is a great need in the Tribal areas in this nation?
    Ms. Yentel. Absolutely. Thank you for the question. Native 
Americans face some of the most [inaudible] and acute housing 
needs throughout the country, especially Native Americans who 
live on Tribal lands. They face high poverty rates, low 
incomes, overcrowding, lack of plumbing, and unique development 
issues. And despite the growing need for affordable homes on 
Tribal lands, and for Native Americans off Tribal lands, 
investments in programs that could help ensure that Native 
Americans are safely and stably and affordably housed have 
declined or leveled off.
    So again, I would point to the importance of significantly 
expanding the National Housing Trust Fund, which would build 
apartments and affordable housing for low-income people on 
Tribal lands and off. And I would also point to a recent 
competitive program that Congress created that directs limited 
funds to the Tribal areas that have the greatest needs, and I 
would encourage Congress to continue that program and to expand 
it.
    Mr. Vargas. Maybe for you or for someone else, how do we do 
that in a culturally sensitive way, because I think that is one 
of the things that we have to be very sensitive to. Again, we 
haven't in the past with Native Americans, and we should. So, 
how do we do that in a culturally sensitive way? That is for 
you or for maybe--
    Ms. Waggoner. May I?
    Mr. Vargas. Yes.
    Ms. Waggoner. This is Jacqueline Waggoner. First of all, 
thank you for asking about Native Americans. I really 
appreciate that.
    We, at Enterprise, have been running a rural and Native 
American program since 1997, working with Tribes across the 
country, and making sure that they have the capacity to build. 
And what I can tell you about affordable housing in working 
with our Tribal partners is that a lot of the housing that gets 
built there that is affordable has both public and private 
investments, such as housing credits and USDA sources. So we 
find it of critical importance, and we have full cultural 
competency on how we work with our Tribal leaders. We take it 
very seriously.
    Mr. Vargas. I do appreciate that, and I guess just to 
conclude, I would say this to the notion that we are running up 
the deficit and making the wealthier wealthier, the Republicans 
seemed to forget that when they were in charge. They ran up 
this huge deficit, a huge debt, during the good times. And they 
made the wealthy, especially the super wealthy, much wealthier 
with their tax giveaway. And now that we are trying to build 
back for everybody, somehow they, all of a sudden, become 
deficit hawks and say, ``You know, we are running up the 
deficit. We are running up the deficit.'' Well, what happened 
when you guys were in charge and you were doing it? That didn't 
matter, and now it matters. No.
    We are investing for the future, this is a smart 
investment, and I really thank you, Madam Chairwoman, for 
bringing this forward. There is nothing more important for 
infrastructure, in my opinion, than housing that is adequate 
for the American people, and I really do appreciate you for 
doing this. Thank you.
    Chairwoman Waters. Mr. Mooney, are you here?
    Mr. Mooney. Yes, I am here.
    Chairwoman Waters. Okay. You are now recognized for 5 
minutes.
    Mr. Mooney. Thank you. It is great to follow my two good 
friends, Juan Vargas and Warren Davidson, and their comments, 
and I certainly agree with the sentiment. Spending should be a 
bipartisan issue. No matter who is in charge, we have to watch 
our spending. And that is really what my questions are about 
and my comments. I am going to address them to Mr. Riedl.
    First, just for starters, since the COVID-19 pandemic began 
last year, the Federal Government has spent more than $5.3 
trillion. That is roughly $16,000 of spending for every 
American. I think a lot of Americans would have just rather had 
that amount, and maybe given it to their kids and grandkids to 
pay it back, because we do have to pay a lot of this back at 
some point.
    The Democrats and the Biden Administration passed a $1.9 
trillion package just a month ago, on a pure party line vote. 
But here we are again, considering an even larger proposal with 
$2.3 trillion in new spending, so right to the deficit.
    Mr. Riedl, in President Biden's proposal--and it is a 
proposal, not a bill, at this point--but in his proposal, would 
the tax increases in that proposal in the plan be enough to pay 
for it?
    Mr. Riedl. Thank you for the question. Not over the period 
of the spending. The President would use an 8-year spending 
bill to be funded by 15 years' worth of taxes, or at least 
[inaudible] taxes, but it would take approximately 15 years for 
the taxes to pay for the 8 years of spending.
    Historically, this has been considered a gimmick, and it 
has been considered a gimmick because the spending never 
actually expires at the end of 8 years. The spending gets 
renewed. Things like long-term care are going to get renewed, 
which means that you get twice the window for taxes as you do 
for spending, which means you do add to the long-term debt.
    Mr. Mooney. Well, that is a problem. My constituents, as do 
most Americans, have kids and grandkids and school-aged, grade 
school, high school, even college, and eventually this has to 
be paid back. So if this package becomes law and our country 
does not rein in our current rate of spending, what will the 
Federal budget look like in 20 years?
    Mr. Riedl. The long-term Federal budget is actually quite 
terrifying. The baseline is where we go from $17 trillion back 
to $35 trillion in debt over 10 years. If all of President 
Biden's agenda is enacted, we go to $42 trillion in debt by the 
end of the decade, and then it gets even worse. Over the next 
30 years, the Congressional Budget Office is estimating $100 
trillion in baseline deficits.
    If you assume President Biden's proposals get enacted, you 
have a debt of 260 percent of the economy, which is unlike 
anything we have ever seen in a developed country. And then, 
you even assume interest rates rise 1 percentage point, you get 
a debt of 150 percent of GDP. At that point, you would need 80 
percent of all your taxes just to pay the interest on the debt.
    So for those who say we can afford a little bit of debt 
now, the baseline is already going to be huge debt growing. If 
you add in the President's proposals, and you add in slightly 
higher interest rates, you are looking at a debt of 350 percent 
of GDP over the next 30 years. At that point, an interest rate 
rise would bury us.
    Mr. Mooney. Those are great points. It leads into my next 
point and question, which is about 20 years from now, if our 
country continues down this road, and you mentioned 260 
percent. We are going to be approaching at least 200 percent or 
even 300 percent debt as a percent of gross domestic product. 
What kind of budget measures would the government need to 
implement, at that point, when things are much worse at that 
point, to bring our budget back to solvency?
    Mr. Riedl. At that point, you have spending at about 33 
percent of GDP, or even close to 38 percent of GDP, and 
revenues at about 17 percent of GDP, depending on interest 
rates. At that point, the choices are to completely double all 
taxes as a percent of GDP or eliminate about two-thirds of all 
program spending.
    We don't want to get to that point. It is much better to 
avoid the huge spending spree in the first place and start to 
implement common-sense reforms now, rather than try to double 
tax revenues or get rid of 70 to 80 percent of program 
spending. That could be potentially catastrophic.
    Mr. Mooney. Thank you, Mr. Riedl. We have 20 seconds left. 
I just want to close by saying that more than 20 percent of 
Americans are already fully vaccinated, schools and businesses 
are reopening, and the economy is coming back. We simply do not 
need to spend trillions more. The out-of-control spending 
proposed by President Biden will leave a mess that our children 
and grandchildren will have to clean up and pay for. If we make 
irresponsible decisions today, then they will be paying for 
them 20 or 30 years from now.
    Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. You are welcome. The gentleman from 
Florida, Mr. Lawson, is now recognized for 5 minutes.
    Mr. Lawson. Thank you, Madam Chairwoman, and I welcome all 
of the witnesses to the committee today.
    One of the things that I talked about in the Housing 
Subcommittee, and this can be for the whole panel, on March 
24th, and I would like to ask all of you the same thing--today, 
it is estimated that $70 billion backlog of capital needs are 
for our public housing stock. Each year we lose about 10,000 
units of public housing due to disrepair. These 10,000 
affordable housing units that could have been led to evictions 
and homelessness, 10,000 households that are gone. Without an 
investment in the public housing infrastructure, these 
important assets and the Federal dollars would not have been 
well-spent.
    Now I can tell you, and if any of you care to respond, but 
for many years I went into housing projects as a basketball 
coach, recruiting athletes, 20, 30 years ago. And those same 
units existed the same way they are now. When many of my 
colleagues talk about how the private sector can do it better, 
most of the units are managed by private housing groups, and 
they have reinvested. I even took the former HUD Secretary down 
to Jacksonville to look at some of the area that looked like 
third-world countries, where people are actually staying.
    But nothing happened with these units. We just pat them on 
the hand and say, ``Hey, you all need to clean up,'' but they 
never cleaned it up.
    So how are we going to fix up these housing units, have 
some kind of accountability, at the same time we are losing 
10,000 units per year, and leading people more into 
homelessness and eviction and on the streets? What is the 
answer? I would like to know the answer, if any of you all can 
respond to it.
    Mr. McAfee. The chairwoman's leadership in advancing this 
package around housing is a perfect example. You make the 
investments. We have neglected this population for years. That 
is why I am telling you, you have 100 million folks who are 
struggling in this nation, and you are not going to solve that 
until you target those investments.
    It is fascinating that we can target investment to 
corporate America, but when it comes to everyday folks who are 
struggling to make ends meet, we do not have any money. And I 
reject the premise that Americans don't want to work or that 
they are so lazy as to just want to stay on a safety net that 
barely allows them to exist.
    The package here gets us beyond some of these tropes about 
the motivations of folks whom I know want to work, want to move 
into the middle class and beyond, and that is why it is such an 
important package. It does improve housing. It does provide the 
community supports that people need as a springboard into the 
middle class. And yes, programs should be made to operate more 
efficiently and effectively.
    But this is not the moment to punish the folks who have 
been on the front lines in this pandemic, making sure that we 
are comfortable in our homes. It is time to honor them by 
making the necessary investments in their communities, the same 
way we make in the communities that we are privileged to be in. 
And so, that is how you do it. You center the very folks who 
have built this nation, and whom we continue to ignore, that 
100 million.
    Mr. Lawson. Ms. Waggoner, do you want to comment on that?
    Ms. Waggoner. Well, first of all, I want to high-five and 
echo what Michael McAfee just shared. But what I would say is, 
we have to invest in things. We can't expect buildings to stay 
in good and healthy condition and kids not be exposed to lead 
and other unhealthy and unsafe conditions in our homes. And 
this bill is moving us towards, let's invest in existing 
infrastructure, let's build new infrastructure. People need 
stable, safe homes so that they can thrive. It is important 
that we focus on that. People do want to work. People do want 
housing that they can afford. Let's do what is right by the 
American people.
    Mr. Lawson. And I want to ask another question, but I have 
to say to Mr. Riedl, the stuff that he has been talking about, 
about reinvesting in the future and what is going to happen, I 
have heard it for 50 years. The deficit is relevant when other 
people are not actually paying for it. And I think when you 
look at all the statistics and the stuff you get from 
universities and find out that, oh, things are getting better, 
but they are really not getting better. So all this assistance 
that you give about where are we going to be 40, 50 years from 
now, none of us will be around anyway. But at the same time, it 
will work out if corporate America and everybody else pays 
their [inaudible] to help the people in this country who need 
help.
    Chairwoman Waters. Thank you very much, Mr. Lawson. The 
gentleman from North Carolina, Mr. Budd, is now recognized for 
5 minutes.
    Mr. Budd. I thank the Chair for hosting. Government 
programs rarely, if ever, result in the creation of any actual 
units of housing, and there is nothing in the Biden proposal 
that would change that outcome.
    We see this language--build, preserve, retrofit--but that 
is deliberately chosen to merge three separate ideas into one 
lump category and blur the difference between building new 
housing and modifying existing housing.
    The reality is that there is nothing in this proposal that 
will actively lead to greater development of housing, so we 
need to focus on the problems at hand. The pandemic has only 
exacerbated inventory shortages for new construction.
    So, Mr. Riedl, this question is for you. How can we 
actively tackle inventory shortages, which we all see, and does 
focusing on retrofitting existing housing help this problem at 
all?
    Mr. Riedl. I think if money was unlimited, of course we 
would love to retrofit every house. We would love to make them 
all as efficient as possible. However, given the fact that 
money is limited, and we have talked a lot in this hearing 
about the need to increase affordable housing, I am not sure 
retrofitting should necessarily be at the top of the goal when, 
again, that takes away money from increasing the capacity that 
we are hearing so much about.
    Mr. Budd. Thank you. According to the National Association 
of Home Builders, during the Great Recession--so, 2008, 2009, 
2010--I think of a lot of my friends who were tradesmen--we 
lost 1.5 million of them, including tradesmen, electricians, 
and carpenters. We have recouped some of these losses but not 
fully.
    Apprenticeships play a really big role in preparing the 
next generation of American workers. So as we get back to low 
unemployment, it is imperative that there are high-salary, low-
debt learning opportunities available to students from every 
background.
    I have actively worked on legislation to expand 
apprenticeship opportunities to more Americans. Again, Mr. 
Riedl, how can increasing access to these high-paying jobs help 
boost the economy and thus spur housing development?
    Mr. Riedl. Absolutely. If we are going to build more 
housing, and we all agree the country does need to build more 
housing, whether the solution is in more Federal funding or 
zoning or NIMBY-ism, we are going to need more housing. And to 
do that, you are going to need a lot more carpenters, builders, 
electricians, plumbers, everything. There are great 
opportunities out there. It is a great way to get out of 
college without a big student loan and actually make a pretty 
good income.
    And so, programs that encourage individuals and make this 
an option for them and show them that you can again make a good 
salary without a legitimate student loan are absolutely 
necessary, because we need to meet the demand with the workers 
to supply the capacity. Absolutely.
    Mr. Budd. Are you seeing this happening now? People are 
frustrated with student debt, and yet, they were never shown 
that there were other opportunities when it comes to these 
high-paying but very low-debt, low-cost educations.
    Mr. Riedl. I don't think it is being emphasized enough. In 
the schools that I see, in the high schools, there is such a 
focus on math and science and STEM, which is great. We 
absolutely need that. But there are individuals for whom that 
is not necessarily the right path. There are individuals who 
aren't necessarily going to become physicists or 
mathematicians. For a lot of those individuals, the trade 
schools and the trades are a great option. And a lot of these 
individuals are going to end up making more money out of 
college than a lot of the people who have BA's and BS's in 
other topics or other fields, and with smaller student loans.
    I don't think it is being emphasized enough in schools, 
though, because I think the emphasis on STEM is great for a lot 
of people, but I think you need to emphasize the trade options 
for others for whom it is a better fit.
    Mr. Budd. Thanks. This Biden proposal calls for American 
job creators to, ``pay their fair share,'' which, to the Biden 
Administration, means the largest tax increases since 1968. So 
if this proposal is enacted, the result would be permanent tax 
increases of over $2 trillion imposed on our businesses. Our 
corporate tax rate would be raised to the highest level in the 
developed world, and even higher than Communist China's, at 
62.7 percent.
    Mr. Riedl, does it make economic sense to pay for short-
term spending based on borrowed money with permanent tax 
increases on America's job creators?
    Mr. Riedl. Absolutely not. It is very short-sighted, and it 
ignores the fact that the rest of the world has been cutting 
their corporate tax rate to become more competitive. And we are 
trying our own companies' hands behind their back. You can't 
raise taxes by $1.8 trillion and not have it hurt wages, 
competitiveness, investment, and growth. That means a lot of 
money is going to hamstring the economy, and the rest of the 
world has figured this out.
    Mr. Budd. They sure have. I yield back. Thank you.
    Chairwoman Waters. Thank you. The gentlewoman from Iowa, 
Mrs. Axne, is now recognized for 5 minutes.
    Mrs. Axne. Thank you, Madam Chairwoman, and thank you to 
all of our witnesses for being here today.
    Ms. Waggoner, Enterprise is broadly focused on addressing 
the lack of affordable housing in America and does so through 
things like developing and operating housing, helping local 
groups, and through assistance with mortgage lenders, is that 
correct?
    Ms. Waggoner. That is accurate.
    Mrs. Axne. Thank you. And that is Bellwether Enterprise, is 
that correct?
    Ms. Waggoner. Yes. Enterprise Community Partners does 
capital investment, we provide programs, and we support policy 
efforts to build affordable housing.
    Mrs. Axne. Thank you, and I so appreciate that effort.
    I actually have some familiarity with Bellwether 
Enterprise. I am not sure if you are aware, but they are the 
lender who financed Havenpark Capital's purchase of Midwest 
Country Estates in my district. It is a manufactured housing 
community in Waukee, and they funded the Haven Park purchase of 
that. And then when Havenpark came in, unfortunately, they 
raised rents by more than 35 percent within the first couple of 
months of purchasing the place, leaving many residents with 
limited opportunities. They are often on fixed incomes, of 
course, struggling to make ends meet, and we certainly do not 
want to evict thousands of folks. But Havenpark, unfortunately, 
has continued to use this same model of adding fees and jacking 
up rents that they used in Iowa and other parts of the country, 
including North Dakota, Michigan, Montana, et cetera. And, 
unfortunately, they have continued to get funding from 
Bellwether Enterprise for many of these purchases.
    This has been brought to Enterprise's attention before, but 
unfortunately, nothing has changed, and I certainly wouldn't 
call rents going up somewhere between 20 to 40 percent within a 
year being reasonable. It pushes people out of their homes and 
it certainly is not affordable.
    So I am wondering, Ms. Waggoner, can you commit to me that 
Enterprise is going to act here to ensure that the lenders that 
you control are acting in line with your mission to support 
affordable housing?
    Ms. Waggoner. First of all, Congresswoman, I share your 
concern about the need of people having housing they can 
afford. I am unfamiliar with what you are referencing, but we 
will certainly look into it and circle back with you.
    Mrs. Axne. I very much appreciate that, because I know that 
you want to make sure that we have affordable housing for 
folks, and I am assuming that, of course, you want to support 
purchases that would allow that. So, thank you. We will make 
sure that you have the information to follow up with.
    I want to turn here to rural housing. I hear regularly from 
folks in my district, from mayors to individuals, and I just 
heard this visiting all of the counties in my district this 
past month, that they face similar shortages of affordable 
housing as the urban areas. And I have said to the committee 
that the affordable housing crisis is not solely an urban 
issue.
    Ms. Yentel, this is a question for you. Could you share 
some of the difficulties you have seen when it comes to 
affordable housing in our rural areas in this country?
    Ms. Yentel. Yes, absolutely. Thank you for the question. 
Certainly, when we are talking about extremely low-income 
renters, there is a shortage of homes affordable to them in 
rural areas, just as there is in suburban and urban areas, and 
comprehensive solutions are needed.
    In rural areas, while there is a similarity in having a 
shortage of homes affordable to extremely low-income people, 
there is some weakness in terms of high costs for constructing 
housing, because there are not economies of scales. And while 
the costs for housing might be lower, wages are often lower as 
well.
    So, it is very important that we invest in the National 
Housing Trust Fund so that in rural areas we can build 
apartments that are affordable to extremely low-income people, 
and it is essential that we ensure that we are preserving and 
maintaining the limited affordable housing stock that doesn't 
exist in rural areas, which is that which is funded by USDA 
Rural Housing. Many of those units, too, are in need of capital 
repairs, and there should be an infusion of funds to ensure 
that we can repair and preserve those funds, and continued 
funding into the future to ensure that those units can maintain 
their affordability for the people who live in them now and 
need them in the future.
    Mrs. Axne. I couldn't agree with you more. I thank you for 
bringing that up to folks. I have introduced a bill to preserve 
that USDA Rural Rental Housing funding, and I couldn't agree 
with you more. It is so necessary.
    I would ask you, does this kind of approach make sense to 
you as a way to keep some of our existing affordable housing 
stock, and do you think that we also need to invest in building 
more housing in rural areas as well?
    Ms. Yentel. Yes. We need to do both. We support your 
legislation. We have to preserve the limited affordable housing 
that does exist already in rural areas where we can't afford to 
lose more, and we have to build more.
    Mrs. Axne. Thank you so much.
    Chairwoman Waters. Thank you very much. The gentleman from 
Tennessee, Mr. Rose, is now recognized for 5 minutes.
    Mr. Rose. Thank you, Chairwoman Waters and Ranking Member 
McHenry, for convening this hearing, as well as thank you to 
our witnesses for testifying today. This hearing is focused on 
a so-called infrastructure proposal where, regretfully, only 6 
percent of the $2.3 trillion package goes to funding roads and 
bridges, not to mention that the plan to pay for this 
Washington giveaway is through permanent job-crushing tax 
increases on American businesses. Today, we are specifically 
looking at the housing piece of the infrastructure plan, where 
I believe Democrats continue to simply throw money at the 
problem instead of providing a plan for actual innovation or 
expanding the housing supply in a meaningful and constructive 
way.
    The infrastructure proposal released by the White House 
unfortunately continues to throw money at old, outdated 
programs that will not build or incentivize the creation of new 
housing units. Several modern innovative programs do exist, and 
they are working well in States like Tennessee. The Rental 
Assistance Demonstration, or RAD, Program, is a bipartisan, 
proven solution that allows residents greater choices and 
flexibility. This program specifically has been extremely 
successful in dealing with the same deferred maintenance issues 
that the Biden Administration is planning to spend $40 billion 
of precious taxpayer resources to resolve. Mr. Luetkemeyer 
emphasized the success of this program earlier in this hearing.
    Mr. Reidl, since the Biden Administration's proposal 
includes putting tens of billions of dollars into 
rehabilitating public housing, do you believe this would be a 
step away from successful programs like RAD, and an indicator 
of a larger publicly-funded housing strategy going forward?
    Mr. Riedl. Thank you, Congressman. Public housing should 
obviously not be the only option for low-income families. I 
think too many historically have been poorly managed, 
environmentally dangerous, and built in parts of town that are 
often away from good jobs and public transportation. And money, 
I agree with you, can be just a band-aid unless we get 
management and structural changes, more inspections, higher 
standards, more effective spending, and better checking for 
lead, mold, and asbestos.
    While public housing should obviously not be left in 
disrepair because our tenants deserve so much better, I agree 
with you, lawmakers should focus more on helping those low-
income families who want to move into more options to escape 
public housing through things like vouchers. I think we want to 
integrate communities together rather than segregate them and 
separate them. And as has been pointed out earlier, the Federal 
Government is not very good at building housing. They are not 
very cost-effective. I would rather they do a better job of 
leveraging the private sector.
    Mr. Rose. In many rural areas, like those in the 6th 
District of Tennessee, construction costs are just too high to 
incentivize building affordable housing. Mr. Riedl, what 
incentives do you believe are most successful in bringing 
affordable housing to rural areas across the country?
    Mr. Riedl. I think you need several options. First off, I 
think you definitely have to provide, on the demand side, a way 
of making sure families have the means to afford it. You need a 
growing economy, higher wages, and, for a lot of families, 
housing vouchers and those sorts of proposals to ensure that 
they can afford it. On the supply side, you could always 
address the regulatory barriers, the local costs. Even in rural 
areas, there can be a degree of NIMBYism (Not in my Backyard). 
If you address the supply and demand, I think you can do better 
than the top-heavy Federal approach.
    Mr. Rose. Yesterday, the Wall Street Journal reported that 
U.S. consumer prices rose sharply in March, marking what they 
say is the start of an expected months-long pickup in inflation 
pressures. Mr. Riedl, could you discuss how spending another $2 
trillion could cause further inflationary pressures in our 
economy?
    Mr. Riedl. Absolutely. The Congressional Budget Office said 
earlier this year that we have an output gap of about $400 
billion. And then, we spent $1.9 trillion on another stimulus 
bill, and now we are looking at $2 trillion more on this. But 
if the output gap is only $400 billion, then at a certain 
point, the additional spending in the economy isn't increasing 
output; it is putting more pressure on inflation and prices. At 
that point, you are either going to get inflation, or you are 
going to be the Federal Reserve more aggressively, essentially 
bribing banks to keep money in reserve, in which case, you are 
getting deficits without any stimulus.
    Mr. Rose. Thank you, Madam Chairwoman. I yield back.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from Massachusetts, Ms. Pressley, is now recognized for 5 
minutes.
    Ms. Pressley. Thank you, Madam Chairwoman, for holding this 
important hearing, and I thank each of our witnesses for being 
here today.
    Housing is infrastructure, and it is essential that any 
upcoming infrastructure package includes meaningful investments 
in our public housing stock. Black and Brown neighborhoods, 
like those in Mattapan, Chelsea, and Everett in my district, 
have been historically divested from and would stand to benefit 
greatly from robust investments in parks, streets, sidewalks, 
clean transit, and better buildings. However, often when long-
overdue infrastructure improvements are made that could benefit 
Black and Brown communities, the gentrification that follows 
pushes them out. Ms. Yentel, as Congress considers an 
infrastructure package which will bring needed improvements to 
our communities, would coupling revitalization with investments 
in public and affordable housing help to fight displacement?
    Ms. Yentel. Yes, absolutely, Congresswoman, because as 
those communities would otherwise gentrify, as this new 
investment comes in, and costs increase, and new people move 
in, that affordable housing that is either constructed or 
preserved in that neighborhood becomes an anchor for the long-
time, lower-income residents, who are often people of color, to 
remain in that community and benefit from the new investments 
in the community.
    Ms. Pressley. Thank you. In fact, in my district, at least 
47,000 families were on the waiting list for public housing 
even before the pandemic. By failing to fund repairs in the 
public housing backlog, every year nationwide we have lost more 
than 10,000 public housing apartments because their conditions 
became uninhabitable. We need to be building more public 
housing and sustaining what we already have. The lack of 
repairs and improvements is also putting my constituents' 
health at serious risk. Specifically, there are currently an 
estimated 4 million households in the United States that have 
children exposed to lead hazards, with a disproportionate 
number of Black children. This exposure can have lifelong 
consequences, including seizures, comas, and even death.
    I was really encouraged to see President Biden include 
funding to remove lead pipes in this infrastructure proposal. 
This is something that I have been fighting for with my friend 
and colleague, Congressman Chuy Garcia. We recently 
reintroduced the Lead Abatement for Families Act to provide 
critical funding for the Department of Housing and Urban 
Development to identify and remove lead pipes in our housing 
stock. It is essential that this bill is signed into law.
    Ms. Yentel, as Congress considers an infrastructure 
package, how could including funding to remove lead pipes be 
beneficial to both our collective public health and our pursuit 
of racial justice?
    Ms. Yentel. It is very important, and at the National Low 
Income Housing Coalition, we strongly support your bill and 
urge Congress to enact it quickly. Any child can be exposed to 
lead, but certainly, children are at higher risk. And children 
of low-income families are 8 times more likely to be exposed to 
lead than higher-income families, and there are profound racial 
equity issues as well. Black children are 5 times more likely 
to be lead-poisoned than White children.
    Public housing is particularly susceptible to lead exposure 
because the developments are older, often decades old, and 
because some of the units are in such a state of disrepair. In 
2019, HUD estimated that there were 62,000 public housing units 
that needed lead abatement, and our partners at the National 
Housing Law Project have estimated that over 90,000 children 
who are in the Housing Choice Voucher Program have been lead-
poisoned. And as you say, the long-term health consequences for 
those children are devastating. So, there is a real imperative 
that we invest in repairing public housing and abating lead so 
that these children in these communities, and especially Black 
and Brown children who are overexposed to lead poisoning, have 
a real shot at a future.
    Ms. Pressley. Absolutely. Thank you so much. Our families 
certainly do not deserve less simply because they can't afford 
more, so we have to ensure that this recovery does not leave 
any community behind, especially those that have been 
disproportionately impacted, given those comorbidities. So, 
thank you very much. I yield. back
    Chairwoman Waters. Thank you very much. The gentleman from 
Ohio, Mr. Gonzalez, is now recognized for 5 minutes.
    Mr. Gonzalez of Ohio. Thank you, Madam Chairwoman, for 
convening this important hearing, and thank you to the 
panelists for your contributions. As I sit here having just 
returned from back home and speaking to folks on the ground 
about the concerns that they have with things like inflation 
and a labor shortage, it strikes me that this bill is poorly 
timed for sure and also pretends that tradeoffs that are 
natural to the economic environment no longer hold.
    Mr. Riedl, I want to start with you. Maybe we are just 
putting our heads in the sand, but we seem to be buying this 
notion that debt-to-GDP no longer matters. Can you talk about 
the historical impacts on an economy for a debt-to-GDP, to the 
degree that ours is scheduled to be, based on this proposal?
    Mr. Riedl. Thank you for the question. There is really no 
historical thing to look back on, because we have never had the 
debt go as big as it is right now. At the end of World War II, 
the debt hit about 108 percent of GDP, which was the highest we 
have ever had. The war ended, and so we were able to bring it 
back down to 25 percent of GDP over the next 40 years, because 
we basically ran very small deficits and had economic growth.
    Right now, again, we are heading towards 130 percent of GDP 
by the end of this decade, and as much as 200- to 300- to 350 
percent of GDP over the next 20 to 30 years. Now, another 
Member had said, well, we have been hearing these warnings for 
a long time. Nothing like this, and the retiring baby boomers 
are the big driving variable. That is going to drive about $100 
trillion in baseline borrowing over the next 30 years. Just the 
Social Security and Medicare shortfalls are going to cost $100 
trillion, according to the Congressional Budget Office. So you 
take that, and then you add on all of this new spending, and 
then you assume higher interest rates, there is no example of 
another country with a debt this big. Japan had the biggest 
debt. They are at about 230 percent of GDP, and their economy 
has not grown in 30 years at 230 percent. If we get up to 300, 
350 percent of GDP, there is no one who is going to bail us 
out. And at that point, again, just the interest costs are 
going to bankrupt us.
    Mr. Gonzalez of Ohio. Thank you. I couldn't agree more. And 
then there is this other myth that we keep pretending around 
here, which is that you can raise the corporate interest rate 
with no tradeoff whatsoever to private sector job growth. I 
want you to comment specifically on single-digit margin 
businesses, like many of the manufacturing businesses in my 
district. What happens to businesses which are already running 
on tight margins when you jack up their tax rate?
    Mr. Riedl. You can put them under, and that is why the Tax 
Foundation and the Penn Wharton Budget Model have said this is 
going to cost jobs, reduce wages, and close businesses. 
According to the Tax Foundation, the construction industry 
under the President's proposal would face marginal effective 
rates rising from the current 18 percent to 24 percent. So, 
here we are talking about how we want to help the construction 
industry. We need to build, build, build, and we are going to 
raise their taxes, their marginal effective tax rate, by one-
third. It doesn't really make any sense. You are going to cost 
jobs, especially for small-margin businesses that can't afford 
it. This is the tradeoff we face. There is no free lunch. The 
taxes will affect the economy.
    Mr. Gonzalez of Ohio. Absolutely. The taxes will affect the 
economy. They are going to put hundreds of thousands of 
businesses and hundreds of thousands of workers, potentially in 
my district, and across my State, out of business. There is no 
free lunch. We do live in a world of tradeoffs, no matter how 
much we want to pretend we don't, and this is a horrible, 
horrible idea at this point in our recovery. Finally, with my 
final few seconds, you correctly point out that so much of the 
projections are based on a faulty assumption, which is that 
interest rates will go nowhere; they will stay effectively at 
zero. Talk a little bit about the role of rising interest rates 
and our ability to pay for all of this spending.
    Mr. Riedl. We are doing something very dangerous, which is, 
we tell any subprime homeowner, don't make a permanent spending 
commitment based on short-term adjustable interest rates. Rates 
are low now. There is no way they are going to stay this low. 
And when they rise, the whole debt is going to reset because 
the average maturity is only 60 months. I mentioned earlier 
that if interest rates rise 1 percentage point above the CBO 
assumption, it will cost $30 trillion in interest over 30 
years. That is 1 percentage point, which means 2 percentage 
points, an extra $60 trillion. We are playing with fire if we 
are going to gamble our fiscal future on the assumption that 
interest rates will never rise again.
    Mr. Gonzalez of Ohio. Thank you. We are playing with fire. 
I yield back.
    Chairwoman Waters. Thank you. The gentleman from New York, 
Mr. Torres, is now recognized for 5 minutes.
    Mr. Torres. Thank you. Thank you, Madam Chairwoman. My life 
has been a journey from public housing in the Bronx to the 
House of Representatives in Washington, D.C., so the subject of 
affordable housing is deeply personal to me. The crisis of 
affordability in America not only exacts an incalculable human 
cost, it also exacts an economic cost. According to a study 
from the University of Chicago and the University of 
California, the affordability crisis costs major metropolitan 
areas, like New York City, $2 trillion a year in lost economic 
growth. The affordability crisis, it turns out, is not only bad 
morals, but it is also bad economics.
    President Biden's American Jobs Plan proposes to invest 
over $200 million in affordable housing. As far as I am 
concerned, every bit as important as the dollar amount is how 
those dollars are spent, and when investing those dollars, we 
need to bear in mind two overarching objectives. We need to 
create more affordable housing to bridge the gap between supply 
and demand, but we also need to ensure that the housing we do 
create is affordable to the poorest Americans. If we do one 
without the other, if we expand housing supply without 
expanding housing subsidy, then we run the risk of creating the 
illusion of affordable housing. We run the risk of creating 
deceptively affordable housing that will leave behind the 
poorest Americans.
    My first question is to Ms. Yentel. Do you share my concern 
about the risk of expanding housing supply without sufficiently 
expanding housing subsidy?
    Ms. Yentel. I certainly do, yes. Subsidies are necessary to 
make these homes affordable to the lowest-income people who 
have the greatest and clearest needs.
    Mr. Torres. The lack of affordability in the American 
housing stock underscores the urgent need for housing vouchers 
for all programs. Every family in need should have access to a 
housing voucher, which ensures that rent is no more than 30 
percent of household income. Now, it is worth noting that the 
affordability crisis is not evenly distributed across income 
brackets. The heaviest rent burden falls on the shoulders of 
the poorest Americans.
    Consider the following statistics from the Association for 
Neighborhood and Housing Development: 60 percent of New York 
City households earning less than $20,000 a year are severely 
rent-burdened. Sixty percent of these households pay more than 
half their income toward their rent and face a higher risk of 
eviction, displacement, and homelessness. By contrast, only .05 
percent of households earning more than $100,000 a year are 
severely rent-burdened. The data is crystal clear that the 
lowest-income Americans have the greatest need for affordable 
housing, and yet most of the affordable housing we create is 
unaffordable to those in greatest need. As a matter of good 
governance, we should allocate resources according to need, and 
the need lies with the lowest-income Americans.
    Ms. Yentel, how can we better tailor affordable housing to 
the families in greatest need?
    Ms. Yentel. I strongly agree with the data that you share. 
It is very clear that it is extremely low-income renters who 
have the greatest and clearest needs, and that is everywhere in 
the country, whether it is in urban, suburban, or rural 
communities.
    There are three main solutions that we need in an 
infrastructure spending package. One, we need to build more 
apartments and ensure that they are affordable to the lowest-
income people, and we do that through expanding the Housing 
Trust Fund to at least $40 million a year. We need to preserve 
the affordable housing that exists today. Public housing is an 
essential resource of affordable, stable homes for low-income, 
and very low-income, and extremely low-income people in 
communities throughout the country. We need to preserve those 
homes with a $70 billion investment in public housing capital 
repairs.
    And we need to expand rental assistance. As you say, we 
have a system in our country today where only 1 out of every 4 
households who needs housing assistance and is eligible for it 
receives any, so 75 percent of extremely low-income people in 
need don't get any housing assistance. They are instead waiting 
in lines to add their names to years- or decades-long waiting 
lists, hoping to win what is essentially a housing lottery 
system in our country where only the lucky 25 percent get the 
help that they need.
    The Biden Administration has recognized housing as a human 
right. He has committed to universal housing vouchers for all 
eligible households. We strongly support this commitment and 
believe Congress should get to work towards realizing it.
    Mr. Torres. I will end here: As you said, public housing is 
said to have a need of $70 billion, but even that might be an 
underestimation because it fails to factor in the cost of 
electrification.
    Chairwoman Waters. Thank you very much. The gentleman from 
Wisconsin, Mr. Steil, is now recognized for 5 minutes.
    Mr. Steil. Thank you very much, Madam Chairwoman. I would 
like to start by highlighting my concerns with President 
Biden's spending proposal here, that we are discussing in this 
conversation virtually. We all look forward to being back in 
person. I think it would be productive to be in person when we 
are talking about spending trillions of dollars of hardworking 
American taxpayers' money.
    My colleagues are calling it an infrastructure bill, but 
really, when you dig into this package, it is a wish list of 
liberal priorities designed to fundamentally change our 
economy. Before the pandemic, before we were punched in the 
face by the coronavirus, the unemployment rate was 3.5 percent, 
one of the lowest in history. Wages were beginning to rise for 
Americans, and hard workers were seeing their paychecks begin 
to go up. Smart reforms, low taxes, pro-opportunity agenda, 
that works. We had a healthy, growing economy. Parts of the 
country that had been left behind for far too long were 
beginning to see opportunities again. Obviously, the pandemic 
has been challenging, but we are beginning to experience a 
remarkable comeback now.
    But my colleagues here want to spend another $2 trillion, 
centralize more power in Washington, D.C., and impose job-
killing tax increases. This proposal would create more 
bureaucracy, including a $50 billion office to monitor 
industrial capacity. As someone who came from the manufacturing 
sector, I can tell you what we don't need is more bureaucrats 
in Washington, D.C., making it harder to create jobs across the 
country. It is the wrong approach for America, it is the wrong 
approach for hardworking families, taxpayers, and it is the 
wrong approach, in particular, for folks in Wisconsin.
    But let's dive in, if I can. Mr. Riedl, I have raised 
concerns about both what I view as the mismatch of our fiscal 
policy as well as our monetary policy multiple times on this 
committee. Many in Washington continue to assert that the 
current low interest rate environment means it is a good time 
to take on debt to fuel future growth. They dismiss worries 
about rising inflation because of aggressive fiscal and 
monetary policies. I have great concerns with this. I am 
worried that inflation will spike, and, inevitably, higher 
future interest rates will follow and will cause our debt to 
spiral out of control. Can you just walk us through your 
concerns--I know you have talked about this--and the risks that 
we face with the continuation of this current spending spree 
that we are seeing in Washington?
    Mr. Riedl. Thank you, Congressman, for the question. It is 
nice to have Wisconsin, my home State, represented on this 
committee. Inflation is certainly a concern. As I mentioned 
earlier, we only had a $400 billion output gap going into this 
year, according to the Congressional Budget Office. We have 
already put in $1.9 trillion to close that gap, and now we are 
talking another $2 trillion more. At a certain point, the 
output gap is more than closed, and everything else is just 
pushing on a wall. At that point, that is when you risk 
overheating and getting inflation, and the only way to stop the 
inflation at that point is for the Federal Reserve to 
aggressively pay banks higher interest rates to keep the money 
in reserve. In that situation, though, the Federal Reserve is 
paying to do the opposite of fiscal policy, which means you are 
counteracting yourself, and all you are doing is raising the 
deficit, so that is the danger we face. You are going to have 
the Federal Reserve doing the opposite of fiscal policy.
    Additionally, on interest rates, interest rates are not 
going to stay this low forever, and the national debt--on 
average, our Treasury bonds roll over every 60 months. So when 
interest rates start to rise, if you are rolling over a $20-, 
$30-, or $40-trillion debt into a higher interest rate, the 
cost will become enormous, and that is why you don't make 
permanent spending promises on short-term adjustable interest 
rates. When they arise, it can cost tens of trillions of 
dollars.
    Mr. Steil. I really, really appreciate that insight. I 
think that is helpful for all of us to continue to be aware of. 
I have a couple of seconds left. I just want to shift gears. I 
felt one of the things in your testimony that was spot on was 
pointing out how this Biden spending plan is really corporate 
welfare in disguise. I think a lot of people would be surprised 
to hear you use that term in the description. Could just 
explain what you mean by that so everybody can have the benefit 
of that?
    Mr. Riedl. Absolutely. This bill would spend hundreds of 
billions of dollars in grants to companies who undertake 
government-approved research projects and investments. We have 
seen in the past from Solyndra to the Advanced Technology 
Program that when government starts picking winners and losers 
in funding grants, we start to see a lot of losers that are 
funded by taxpayers, and we start to see some corruption in 
politics as well.
    Mr. Steil. I share a lot of your concerns. We are going to 
continue this discussion. I yield back.
    Chairwoman Waters. Thank you very much. The gentlewoman 
from North Carolina, Ms. Adams, is now recognized for 5 
minutes.
    Ms. Adams. Thank you, Madam Chairwoman, for convening this 
critically important hearing today, and thank you to our 
witnesses for your insight and expertise on how we can make 
long overdue investments in infrastructure.
    My first question is for Dr. McAfee. In my district and all 
across the country, families living in overcrowded housing 
situations have been disproportionately affected by COVID-19, 
and, in many cases, families and individuals have had to move 
into motels and other short-term supportive housing. Due to the 
limited stock of affordable housing, some large families are 
forced to live in smaller apartments to save money. Multiple 
studies have indicated that households with large amounts of 
individuals are more likely to spread COVID-19 since physical 
distance can be nearly impossible. These studies found that 
families and individuals who come from low socioeconomic 
backgrounds are also more likely to contract the virus. This 
issue is impacting families as well who are currently staying 
at congregate facilities that require living in the same space 
with other families and individuals.
    How can investing in housing infrastructure assist families 
living in overcrowded housing and shelters, and how should 
housing infrastructure investments take into consideration the 
needs of multi-generational households?
    Mr. McAfee. Thank you for the question. Our private sector, 
and at times our government, has picked winners and losers 
already. That is why your question is so appropriate. The 
reality is that we have not had the production of housing that 
would not make that a problem. So going forward, the first 
thing we need to do is to make sure that we are providing 
immediate relief to these families so they can get out of the 
debt burden that they are going to be in. Folks will not be 
able to repay the rent that they are behind on through no fault 
of their own. That is the first thing. If you can pick winners 
in corporate America and make sure that they can be made whole, 
it is time for us to also make sure that our own people are 
made whole. We shouldn't be apologetic about that. We should 
stand firm on that point. That is the first thing.
    The second is we should begin to design communities of 
opportunity so that is not the problem, and it has everything 
to do with our zoning patterns in this nation. The reality is 
this entire conversation today is a conversation about the 
design of a nation that does not work for the vast majority of 
people who are living in or near poverty. It doesn't matter 
what color your skin is, and the opportunity that this bill 
presents is for us to call it. Do we want to lift them up into 
the middle class? Do we want to design a nation, our laws and 
our regulations, so that they buoy them the same way they do 
our corporate partners? It is time for us to stop pitting one 
group, one sector against each other and design a nation that 
will work for everyone. That is the opportunity and that is the 
path forward, quite frankly.
    Ms. Adams. Thank you, sir. Ms. Yentel, in 2019, the 
Charlotte Public Housing Authority launched a new housing 
program with the aim of boosting families' economic upward 
mobility. It was a new enhanced voucher program to move 
families to opportunity areas with higher-performing schools, 
lower crime rates, access to transportation, and so forth. 
Madam Chairwoman, I would like to enter into the record a 
Charlotte Observer article entitled, ``I Just Want More for 
Them: New Programs Aim to Boost Families' Economic Mobility.''
    Chairwoman Waters. Without objection, it is so ordered.
    Ms. Adams. Thank you. We know that increasing the supply of 
affordable housing, especially in the areas connected to good 
schools, well-paying jobs, and so forth, helps lower-income 
families climb the ladder. So how can Congress invest in 
affordable housing infrastructure to ensure that all children, 
including those in America's lowest-income families, can live 
in neighborhoods of opportunity? Ms. Yentel?
    Ms. Yentel. Thank you for the question, and a couple of 
things come to mind. One is that certainly as Congress is 
considering, and hopefully will make, these major investments 
in preserving and building more affordable housing, they will 
be creating jobs along with those investments. And for public 
housing alone, that $70 billion in repairing public housing can 
result in about 800,000 jobs. And with the public housing 
program, there is a requirement that jobs that are created 
through investments through that program go first to residents 
of public housing, and, next, to other low-income people in 
those communities. So, it is not only creating jobs in general 
for the community, but targeting those jobs to the low-income 
people who live in public housing developments and in the 
surrounding communities.
    Ms. Adams. Thank you very much. Madam Chairwoman. I yield 
back.
    Chairwoman Waters. Thank you very much. The committee will 
be in recess for 5 minutes, and when you return, Mr. Green will 
have the gavel. Thank you. The committee is in recess.
    [brief recess]
    Mr. Green. [presiding]. The Chair now recognizes the 
gentleman from South Carolina, Mr. Timmons, for 5 minutes.
    Mr. Timmons. Thank you, Mr. Chairman. I appreciate the 
committee calling this hearing today. This is an important 
issue, and I look forward to working with my colleagues on both 
sides of the aisle to find a good path forward.
    I am going to start out with infrastructure generally. I am 
a ``yes'' on infrastructure. I think that this country needs to 
invest. It has been too long since we have invested a 
substantial amount of money, and we need to take steps 
immediately to get our overall posture of the economy up to par 
so we can compete in the global economy. But I guess the next 
question is, what is infrastructure? In my mind, it is roads, 
it is bridges, it is trains, air travel, ports, and I would 
even go to the next level of utilities. You have sewer, water, 
electricity, and broadband. And I will throw one other thing in 
there that we are not really talking about, which is 
cybersecurity, because even if we invest all this money in 
utilities, if we don't have the cybersecurity protected, it is 
kind of all for naught.
    So if that is infrastructure, the thing that we can all 
agree on is that there is not a lot of decision-making on how 
to address it. You literally just have to spend money. It all 
costs money to invest in updating infrastructure. So the 
challenge that we are facing right now is that we are expanding 
the definition of, ``infrastructure.'' And I am going to ignore 
all the green new deal and social programs, and I am just going 
to talk about affordable housing.
    I am also a ``yes'' on affordable housing. I believe that 
it is appropriate and overdue for the Federal Government to 
invest in affordable housing. The challenge is, different from 
roads and bridges; you don't just write a check. You don't just 
throw money at it. There are a lot of policy considerations 
that you must take into account before you actually invest in 
affordable housing.
    I am just going to point out that 30, 40, 50, 60 years ago, 
the Federal Government wrote big checks, and I might even argue 
that the impact, while it was well-intentioned, was possibly 
worse than if nothing had ever happened, because all of these 
investments created high-density communities which just didn't 
turn out well. Obviously, we are not talking about doing the 
same thing now that we did in the 1970s, because everyone 
appreciates that is not the best path forward.
    I really like the idea of carrots to developers to say, we 
are going to incentivize you from doing 20 percent affordable 
housing, 40 percent affordable housing for your development, 
but you can't force it. You have to incentivize it, and we have 
to craft policy, Opportunity Zones, new market tax credits, all 
of these different programs that incentivize private sector 
developers to be good stewards of our tax dollars. These tax 
dollars will go infinitely further. So, Mr. Riedl, does what I 
am talking about make sense? What is the best way to get the 
most bang for our buck in investing Federal tax dollars in 
affordable housing?
    Mr. Riedl. I think what we can do is, well, the first thing 
is, we need a strong economy. We need to have rising wages. We 
can't strangle the economy with taxes. We need to get the 
unemployment rate down. We need to grow the economy. And then 
from there, I think we certainly need to do our part to repair 
the parts of public housing that are absolutely in disrepair 
because nobody should have to live in some of the conditions we 
have heard about today. Beyond that, my approach, and I think 
the approach of a lot of people who look at this issue, is we 
need to incentivize building through a lot of local NIMBYism 
and regulations where people don't want to build low-cost 
housing around them, but then incentivize the private sector to 
build and utilize vouchers to help people have more choices so 
that they are not stuck in public housing.
    I am not sure having the government build the housing 
itself is very cost-efficient. I would rather incentivize the 
private sector to build it. I think you have to do a lot with 
zoning. You have to do a lot with NIMBYism, and you need also a 
growing economy.
    Mr. Timmons. Mr. Reidl, thank you. I am going to finish 
with this. The next question is, how do we pay for it? And I 
always joked when President Trump was saying he wanted to do a 
$1- or a $2-trillion infrastructure package, I said, there is a 
big difference between $1 trillion and $2 trillion, and here we 
are, the new Administration wanted to do $3 trillion. Now, it 
is down to $2, $2.2 trillion, or whatever. I do not like 
deficit spending, but if we are investing in infrastructure, 
there is a role for spending money, investing money.
    President Biden just yesterday told some of my colleagues 
that he wanted this package to be deficit-neutral. If we tax 
our way to making this deficit-neutral, it will put us in a 
very bad spot in our economy, and we will not be able to get 
past this pandemic. With that, I yield back.
    Mr. Green. The gentleman's time has expired, and the 
witness may respond for the record at a later time.
    The Chair now recognizes the gentlewoman from Pennsylvania, 
Ms. Dean, for 5 minutes.
    Ms. Dean. Thank you, Mr. Chairman, and I thank Chairwoman 
Waters and all of our witnesses for being with us today. I do 
want to apologize for my popping in and out. I am in a 
Judiciary Committee markup, so I apologize. It is not for lack 
of interest in this incredibly important issue of affordable 
housing.
    It is very important in my district, in the 4th 
Congressional District of Pennsylvania, which is suburban 
Philadelphia, Montgomery and Berks Counties. Housing is, as we 
know, the base level of infrastructure, the most basic and 
important pieces of infrastructure in our communities. A roof 
over my constituents' heads to raise a family, to live their 
lives, and ultimately to age with dignity is critically 
important and desperately needed. For too many, including my 
constituents, affordable housing is not a reality.
    I wanted to start with you, if I may, Professor Omarova. I 
am interested in something you said in your testimony. Could 
you outline how your National Investment Authority proposal 
would leverage private investment with public backing for our 
infrastructure broadly and create more affordable housing 
specifically?
    Ms. Omarova. Yes, thank you. I completely agree both with 
the statement of the need for spurring infrastructural 
development and affordable housing development, and also with 
the need to make sure that we channel the money effectively and 
efficiently. So, the NIA would actually be a direct market 
actor. It is a public entity, but it would utilize market 
means, for example, it would be able to create a sort of a 
secondary market for credit, for bonds that are issued by a 
variety of public authorities, but also by private actors that 
are interested perhaps in building better housing with better 
options in suburban Philadelphia or elsewhere. And so, the NIA 
would be standing by and effectively allowing them to issue 
those bonds and make markets in those bonds.
    The NIA could also set up public/private investment funds 
in which various institutional investors that are looking for 
stable income-producing assets in the long run could invest, 
but those public funds, public/private funds, would be managed 
and controlled by the NIA that would be basically channeling 
money into affordable housing and other public infrastructure. 
And the Federal Government, for example, the Federal Reserve, 
could provide back-up liquidity support for the NIA.
    Ms. Dean. Thank you so much. It sounds like smart multiple 
revenue streams and a really important partnership, public and 
private, to meet the needs. Ms. Yentel, I would love to talk 
with you a little more in greater detail about affordable 
senior housing. Again, in my neighborhoods, it's very 
desperately needed as people are aging and want to age in place 
as best and as safely as they can. The problem is stark when 
you are talking about seniors.
    According to a 2020 issue of the American Bar Association's 
Commission on Law and Aging, nearly 10 million households with 
an occupant over the age of 65 spend more than 30 percent of 
their income on housing, and 5 million spend more than 50 
percent. The problem will only grow as our senior population 
booms, expecting to reach 83 million people aged 65 or older by 
2050. Ms. Yentel, could you describe, beyond my own ability to 
describe, the need, with greater detail, for increased supply 
of affordable and accessible senior housing?
    Ms. Yentel. Yes. Thank you for the question. And 
especially, again, when we are talking about extremely low-
income seniors, we are talking about a senior who is bringing 
in income from retirement or other sources of less than $12,000 
a year, so they can afford very little when it comes to their 
homes, but certainly they deserve and ought to have affordable 
and decent homes that allow them to age with dignity.
    Thirty percent of all extremely low-income renters are 
seniors. So, again, I would point to really important and 
effective programs like the National Housing Trust Fund that 
would allow communities like yours to build apartments and have 
them be affordable to those extremely low-income seniors and 
other extremely low-income people in your communities. Also, 
the Section 202 Program through HUD is specifically for housing 
for seniors, and the Housing is Infrastructure Act that 
Chairwoman Waters introduced would fund another $2.5 billion 
for that program, which would allow for some new development of 
Section 202 homes, another really important investment.
    Ms. Dean. Thank you very much. Our family faced it with my 
own in-laws. Thank you for those important details. I yield 
back, Mr. Chairman.
    Mr. Green. The gentlewoman's time has expired. The Chair 
now recognizes the gentleman from Illinois, Mr. Garcia, for 5 
minutes.
    Mr. Garcia of Illinois. Thank you, Mr. Chairman, and 
Ranking Member McHenry, for holding this hearing. And, of 
course, thanks to the witnesses who came to discuss the urgent 
need to invest in housing. Our housing crisis didn't start with 
the COVID-19 pandemic. It has been a long time coming. Most of 
my constituents are renters, and many never recovered from the 
Great Recession.
    You see, in Chicago, the housing crisis is a racial justice 
issue. Since 2010, in one neighborhood in my district, the 
Logan Square neighborhood, we lost more than 10,000 Black 
residents and 20,000 Latinos while landlords profited from sky 
high rents. There simply isn't enough safe, affordable housing 
in the City of Chicago. I am proud of what we have done in 
Congress to keep people in their homes during this pandemic, 
but Black and Latino households are still more than twice as 
likely to fall behind on their rent, and working families in 
communities like mine are pushed into homelessness or unsafe 
housing. We need to do more.
    Ms. Yentel, you mentioned the need to invest in badly-
needed repairs to keep our country's public and affordable 
housing safe for families. Today, my colleague, Ayanna 
Pressley, and I introduced the Lead Abatement for Families Act. 
Our bill provides funding for HUD to find and remove lead pipes 
in affordable housing. Could you talk about how this investment 
from affordable housing endangers lives in communities like 
mine, and especially for Latino and Black renters, and what 
more Congress can do to create safe, affordable housing for 
all?
    Ms. Yentel. Yes, thank you, Congressman Garcia, and thank 
you for your leadership on that important legislation, which we 
strongly support. Certainly, we need to work towards lead 
abatement in all homes, and especially in public housing and 
other affordable homes where it is predominantly low-income 
people of color who are at high risk of lead poisoning. Lead 
poisoning is a racial justice issue and an economic justice 
issue where low-income children are 8 times more likely to be 
exposed to lead than higher-income children. And Black and 
Brown renters and their children are 5 times more likely to be 
exposed to lead than children in renter households.
    So, unfortunately, there are many public housing units and 
units on the private market that are rented with vouchers where 
lead exposure is a real issue. There was a HUD study a couple 
of years ago that found that about 62,000 public housing units 
contain lead, and our partners at the National Housing Law 
Project have estimated that about 90,000 low-income units with 
Housing Choice vouchers have been exposed to lead. And, as you 
know very well, there are devastating lifelong consequences for 
children who are exposed to lead. So certainly, it is a racial 
justice issue, it is an economic justice issue, and it is a 
moral imperative that we do lead abatement in all subsidized 
homes to start with, and then beyond.
    Mr. Garcia of Illinois. Thank you for that. Professor 
Omarova, the effects of the pandemic on places like Puerto 
Rico, which are already devastated by inequality and historic 
hurricanes, have been disastrous. In some towns in Puerto Rico, 
Hurricane Maria left 60 percent of the population homeless. 
What role could a National Investment Authority play in 
stopping climate change and fostering equitable development in 
places like Puerto Rico?
    Ms. Omarova. Thank you for this question. That is exactly 
part of the reason why we need an NIA, an entity that would 
basically take a look at the entire country, all of the 
Territories, not only the ones that we know about, but the ones 
that really need investment, and then channel the money into 
those areas. So the NIA could, for example, not only channel 
credit into Puerto Rico to build new infrastructures and new 
housing, but also make equity-based investment, joint ventures 
with various public-private partnerships to make sure that all 
kinds of needs are satisfied the way they should be.
    Mr. Garcia of Illinois. And approximately what kind of an 
investment would be needed to seed this agency that Chairwoman 
Waters referenced in her opening remarks?
    Ms. Omarova. It depends. The bigger the pile of money, the 
stronger and more effective the institution will be. I will 
take as much as Congress will give us.
    Mr. Garcia of Illinois. Thank you very much. I yield back, 
Mr. Chairman.
    Mr. Green. The gentleman's time has expired. The gentlelady 
from Texas, Ms. Garcia, is recognized for 5 minutes.
    Ms. Garcia of Texas. Thank you, Mr. Chairman, and thank you 
also, of course, to Chairwoman Waters for holding this very 
important hearing at such a critical time. I also want to thank 
all of the witnesses for being here. I, too, like Ms. Dean, 
apologize, but I also have been in a Judiciary Committee 
markup, and we have had a lot of amendments, and they need us 
for votes. And it has been hard to get around to both today, 
but I do apologize.
    After years of Federal underfunding in housing and 
infrastructure, I am so grateful, Mr. Chairman, for President 
Biden recognizing the need for Federal investment in both 
affordable and equitable housing, especially, as you know, 
because in Houston, this is imperative. In the last few years, 
I have seen my constituents endure hurricanes, excessive 
flooding, and, most recently, a deadly winter freeze. Many of 
these natural disasters have severely damaged or altogether 
destroyed people's homes.
    Mr. Chairman, you and I witnessed that firsthand in the 
tour that we did shortly after the freeze. We saw homes that 
had piping that burst, but the damage was there even before the 
piping burst, because many of the homes are older. Many of the 
homes were in disrepair. There just seems to be a lack of 
affordable housing stock in the core of the City of Houston, 
much like there is in many cities across America. And, Mr. 
Chairman, Houstonians are resilient. We have and will recover. 
But for folks who were already struggling to keep a roof over 
their head, pay the bills, and put food on the table, these 
disasters and COVID have just made the inequities even worse. 
This is why we need a strong investment in affordable housing 
under President Biden's plan, among other policies. We, as 
Members of Congress, have a duty to ensure that people have 
access to affordable, high-quality housing, especially during 
times of crisis.
    So with that in mind, I wanted to ask Professor Omarova a 
question. What role could the NIA play in financing holistic, 
community-driven solutions to resilient communities like mine 
where we often overcome natural disasters and simultaneously 
experience chronic housing needs?
    Ms. Omarova. Thank you. Again, this is a great question 
because it goes to the core of the NIA proposal, which is to 
create a dedicated Federal entity, a financial institution that 
is not hamstrung by jurisdictional limitations and internal 
conflicts, that actually is quite flexible and takes an 
integrated, unified view of the structural imbalances in the 
economy.
    For example, in Houston, this is an area where inequality, 
racial inequality, social/economic inequality is also coupled 
with clear environmental injustice, as people are suffering 
from bad air and all of the pollution that the fossil fuel 
industry created and access to basic services, as we know, with 
the grid issues right now. So how can you solve a housing 
problem without solving those problems as well? Currently, 
Federal agencies and State agencies all have different 
jurisdictional limits. The NIA will step in and do it all in a 
unified manner.
    Ms. Garcia of Texas. Thank you. Can you explain the process 
for making investment decisions at the NIA?
    Ms. Omarova. The NIA will have, first of all, regional 
offices that will provide this kind of democratic 
accountability, and community input, and local input channels. 
That would be one way one the NIA will get information about 
projects that need financing. There are plenty of shovel-ready 
projects already at the State levels, and local levels, and 
Tribal levels that people know about, and the NIA will develop 
those. But it will also take the development forward, working 
on its own technological capacity with researchers and 
academics in figuring out what kind of forward-looking projects 
are worth financing. There will be public auctions, for 
example, where everybody, both private and public entities with 
good projects, can participate. And there will be a transparent 
process for choosing the kinds of projects that make the most 
sense economically and socially. And that's how the NIA will do 
it.
    Ms. Garcia of Texas. So what policy objectives would they 
hope to achieve?
    Ms. Omarova. Structured, balanced economic growth that is 
inclusive, equitable, and environmentally sustainable. This is 
good not just for liberals. It is not a political issue. It is 
not an ideological issue. This is just good policy for America 
and the American future.
    Ms. Garcia of Texas. Now, I have a question for Ms. 
Waggoner.
    Mr. Green. The gentlelady's time has expired.
    Ms. Garcia of Texas. My time is up. Thank you, Mr. 
Chairman. I yield back.
    Mr. Green. The Chair will now recognize the gentlelady from 
Georgia, Ms. Williams, for 5 minutes.
    Ms. Williams of Georgia. Thank you, Mr. Chairman, and thank 
you to all of our witnesses for joining us today. Ms. Yentel's 
testimony referenced a report, ``The Gap,'' that underscored 
just how important investing in housing infrastructure is. In 
the Atlanta Metro area, there are only 29 affordable and 
available housing units per 100 extremely low-income 
households. That is below the national average, which is still 
too low at 37 per 100. To serve the people of Georgia's 5th 
District and folks across the country, we need millions more 
affordable housing units. That is why I am proud to work with 
my fellow Members of Congress and President Biden on the 
American Jobs Plan. We have a tremendous opportunity to ensure 
that so many more of us have a decent home while also creating 
jobs and boosting our economy.
    Ms. Yentel, in my district, we have a great deal of vacant 
property that could be redeveloped to support affordable 
housing, and I am a co-sponsor of the Restoring Communities 
Left Behind Act, which, among other things, would support the 
purchase and redevelopment of vacant property for housing. What 
would including this type of investment in an infrastructure 
package mean for low-income residents in need of housing, as 
well as for the neighborhoods that would get the investments?
    Ms. Yentel. Thank you for that question, and for laying out 
the data so clearly. Certainly, investing in rehabilitating 
vacant units and bringing them up to a point where families who 
need those affordable homes can live in them is a benefit for 
those families and for the community. I think the legislation 
that you are leading is an important way to do that. We can 
also use the Housing is Infrastructure Act's allocation of $45 
million for the Housing Trust Fund. In some cases, if these are 
multifamily rental units, we could also use those resources to 
rehabilitate those units and make them affordable to the 
lowest-income people, to those extremely [inaudible] in the 
community. Any time we can take a standing building and 
rehabilitate it into something that can be habitable, we 
should, because that's certainly less expensive than new 
construction.
    Ms. Williams of Georgia. Thank you so much.
    Ms. Waggoner, your testimony highlighted the importance of 
easing utility cost burdens on low-income families. The 
Restoring Communities Left Behind Act also provides funds for 
home weatherization and energy efficiency activities. What 
benefits does green housing infrastructure provide for low-
income families, and how important are investments in this 
area?
    [No response.]
    Ms. Williams of Georgia. I can't hear you. I don't know if 
anyone else is having that problem.
    Ms. Waggoner. Okay. Thank you. Can you hear me now? Great. 
I wanted to say thank you for asking that question, and green 
housing is critically important to the health of the people who 
live there. We are talking about lead-based paint and other 
things, and when you build green, you really build a healthier 
environment for those families who live there.
    Second, I would say when you build green housing, the 
property owner saves money because they are using solar panels 
and other things, but also the residents who live there also 
have a cost savings, and they can make different choices for 
their family, like buying healthier food, investing in their 
education, or job growth. So, I think green housing is a win 
all the way around.
    Ms. Williams of Georgia. Thank you so much. And finally, 
Dr. McAfee, what principle should we keep in mind as we advance 
housing infrastructure investments to ensure the funds 
efficiently and effectively benefit our most marginalized 
communities?
    Mr. McAfee. Thanks for asking the question. First and 
foremost, we should center the people who have been left 
behind, and that should just be at the forefront of our 
consciousness with everything that we do. We should remember 
that the work of government is to achieve equity, a just and 
fair society. We should make sure that we are not just building 
units, but that we are building communities of opportunity, and 
that we hold all of the intersectional interests associated 
with infrastructure.
    Good infrastructure investments will ensure that we can 
improve social and economic outcomes for children and their 
families, and so those should be the things that we are 
thinking about. Holding all the complexity from cradle to 
career--housing, water, jobs, communities of opportunity--that 
is the work for our generation to ultimately design a nation 
that works for everyone.
    Mr. Green. Thank you for your testimony, sir. The 
gentlelady's time has now expired, and the gentleman from 
Massachusetts, Mr. Auchincloss, is recognized for 5 minutes.
    Mr. Auchincloss. Thank you, Mr. Chairman, and thank you to 
our witnesses today. I represent, in the Massachusetts 4th 
District, a socioeconomically diverse district. In the north, 
we are close to 5 times what they are in the south with a 
concomitant diversity of housing prices as well, but there is 
one uniform concern across the district, and that is the 
affordability of housing. I hear it in every town hall and 
every roundtable that I do. We are in the midst of a housing 
crisis, and I am pleased that Congress is considering housing 
to be an imperative part of infrastructure.
    Dr. McAfee, I want to address this question and line of 
questioning to you. One of the challenges that I see in the 
production of affordable housing is that there has been very 
limited research and development and innovation in the 
construction of housing over the last 70 years. If we built 
cars the way that we build housing today, it would mean 
standing in your driveway and hiring a general contractor, 
ordering 30,000 parts for the car, and assembling it in your 
driveway over the course of a year, and the car would probably 
cost half a million dollars and not drive particularly well. 
But we are still stuck in that mindset with housing. I wonder 
if you have seen models of vertically-integrated, factory-built 
housing, for multifamily, in particular, that, in conjunction 
with nonprofits, have been able to provide housing at a much 
lower cost per key and done at scale.
    Mr. McAfee. Yes. I serve on the board of Bridge Housing 
based in San Francisco, and the reality is this is an area 
where more research is needed, but there are some positive 
signs of being able to produce manufactured housing that is 
affordable, that is decent, and that is safe. There are some 
projects going on actually in San Francisco right now that are 
using union wage jobs.
    But when I talk about the redesign of the nation, this is a 
perfect example where more is needed. We are not fully in 
alignment with unions, with the developers, with the builders, 
whether they are for profit or not. And so the answer is, yes, 
I am seeing it work. I am seeing organizations, like Enterprise 
and Bridge and others, begin to try to figure out how to do 
this. And in my own experience, I personally witnessed it with 
Bridge Housing, and we are watching a development in San 
Francisco. But the issues of whether you can keep the costs 
down, whether it is on the construction side or with labor, it 
is essential for us to find a path forward. And I think when we 
make these types of investments, these are some of the learning 
agendas and the research opportunities that we should be 
focused on.
    Mr. Auchincloss. Dr. McAfee, I appreciate that. And to 
build on that, I would add on my own, too, that it is important 
not only that we have equity of opportunity in the jobs of 
constructing the factory-built housing, but also in the 
development of it. Some companies I know are starting to try to 
create programs for nascent developers to go out and try to 
plant some of these development projects throughout because too 
often, being a real estate developer has been sort of an old 
boys network, and this is a way to crack through that. So, I 
think there are promising roads ahead here.
    Mr. McAfee. That is right.
    Mr. Auchincloss. My final question is for Professor 
Omarova, and it is about the National Investment Authority, and 
it is building on the vertically-integrated, factory-scale 
housing. Is there a role for an NIA in a public-private 
partnership to spur production at scale of this type of 
housing, because a lot of times what is necessary to get lower 
cost-per-key for factory-built housing is an order of size on 
the thousands as opposed to hundreds or dozens.
    Ms. Omarova. That is absolutely correct. That is exactly 
the type of project that an institution like the NIA, with the 
scale and flexibility that it will have, will really play a 
great role in. And my one little point here would be that this 
would be a new kind of public-private partnership, not the old 
kind when there is just public money and private actors 
basically manage it, mostly to their own advantage. It will be 
a true partnership in which the public will lead.
    Mr. Auchincloss. I appreciate that, Professor. And I yield 
back.
    Mr. Green. The gentleman yields back. The gentlewoman from 
New York, Ms. Ocasio-Cortez, is recognized for 5 minutes.
    Ms. Ocasio-Cortez. Thank you so much, Mr. Chairman, and I 
am so glad that we are at a point where we are truly starting 
to not just acknowledge, but really incorporate the 
opportunities available to us of decarbonization and addressing 
climate change with infrastructure investment, especially when 
it comes to housing. When people think, and if you ask the 
average person what are some of the largest sources of carbon 
emissions, a lot of people may tell you cars and 
transportation. But an area that a lot of people don't tell you 
is housing construction and buildings, which is one of the 
largest sources of carbon emissions in the country.
    And where I come from, New York City, one of the largest 
sources of housing stock in New York City is public housing. 
Our public housing has been starved for a very long time period 
of time, and we have an opportunity right now to leapfrog, to 
not just catch up and patch up holes in walls and update boiler 
systems, but to actually actively retrofit our buildings and 
make them world class in both decarbonization and dignity.
    This isn't a coincidence, because what we are starting to 
see and what we know is that the climate crisis does not impact 
all communities equally. We are seeing that communities that 
are most prone to flooding and other environmental risks also, 
unsurprisingly, happen to be the most vulnerable, the poorest, 
the Blackest, and the Brownest. And it is important that our 
housing stock is resilient in the face of a changing climate, 
and we need to make sure that we are being as ambitious as 
possible. And if we want to be the greatest country in the 
world when it comes to investment in our housing 
infrastructure, dignity for all people, and the guarantee of 
housing healthcare and more, we actually need to do it. And so, 
I am really excited that we have introduced the Green New Deal 
for Public Housing, which actually does that, and it is a 
proposal that retrofits, rehabilitates, and decarbonizes the 
entire nation's housing stock, while creating good-paying new 
jobs in the process.
    So anyway, plug aside. Ms. Waggoner, aside from the need to 
increase the sheer number of housing units in this country, can 
you explain why Congress should also be committed to ensuring 
that those units are resilient, sustainably built, and also 
sited strategically, located in strategic places?
    Ms. Waggoner. Thank you for that question. First and 
foremost, we either pay for not investing later, or we pay for 
it now. We have invested $96 billion from most recent 
disasters. We know that we will expect more. So why not invest, 
like you said, in these buildings to get ahead so there is 
better preparedness, communities can stay housed, low-income 
people and people of color are not at risk of being displaced, 
the turnaround time is less, the recovery is faster, people can 
get back to work, and they can get back to doing the things 
that help them thrive? I think it is good business sense to do 
it before you need to do it, so preparedness in advance of a 
disaster is critical here. I am excited that this bill is 
talking about it, and I am hoping that everything that we build 
new, that is our strategy moving forward.
    Ms. Ocasio-Cortez. Absolutely. And I think that this is 
something we really need to talk about, that when it comes to 
homelessness in this country, it is a climate issue. In fact, 
right now, the top five States with the highest share of the 
homeless population in this country are also all in the top six 
States that are climate disaster-prone in the United States. 
When we see wildfires, when we see floods, when we see natural 
disasters like this happen, they result in destroyed homes. And 
so many of us in this country are one disaster away from being 
homeless, and the vast majority of us are closer to that than 
to having three or four homes, like the select few who are 
living in in luxury.
    But moving on, it is not just about those big retrofits. It 
is also about these smaller changes, too. Studies have shown 
that energy efficient home upgrades can save households an 
average of 11 percent on annual utility bills. Ms. Waggoner, I 
was wondering what can you offer and what insight can you offer 
around, even with that existing public housing stock that we 
have or even in upcoming housing stock, what some of those 
internal technology changes could mean for communities and 
families that are also living inside them?
    Mr. Green. The gentlelady's time has expired. We will ask 
the witness to respond for the record.
    Ms. Waggoner. I will do that.
    Mr. Green. The Chair now recognizes the gentlewoman from 
Michigan, Ms. Tlaib, for 5 minutes.
    Ms. Tlaib. Thank you so much, Chairman Green, and thank you 
all so much for holding this hearing. We all truly believe 
housing is infrastructure.
    During the Great Recession, top-down programs intended to 
revitalize struggling neighborhoods didn't reach residents in 
communities like Detroit or Toledo, and instead went towards 
tearing down homes. We can't demolish our way out of the 
housing affordability crisis if we are going to build back 
better. We have to direct housing money where it is most 
needed. That is why I am so incredibly proud of the work I am 
doing with Congresswoman Marcy Kaptur on the Restoring 
Communities Left Behind Act. We are very grateful that national 
organizations, including Habitat for Humanity, the National 
League of Cities, and the U.S. Conference of Mayors, have 
called for this bill to be included in the upcoming 
infrastructure package. And I thank Chairwoman Waters and the 
Financial Services Committee for including it in today's 
hearing.
    The bipartisan bill would provide $5 billion to distressed 
communities to carry out our neighborhood revitalization 
activities like rehabbing homes, improved accessibility for 
seniors and those living with disabilities, increasing home 
ownership as well, and also combating this really huge crisis 
of tax foreclosures in my district. Unlike existing programs, 
this bill creates a grant program with the flexibility to 
respond to the needs of the communities we serve. For example, 
we know that low-income people of color pay 27 percent more for 
energy costs compared to low-income White households. The funds 
in this bill can be used towards weatherization and home 
repair.
    And, Mr. Chairman, since 2011, the Wayne County treasurer 
has foreclosed on more than 100,000 homes in Detroit, and you 
saw that firsthand. Even though more than 90 percent of Detroit 
homes were over-assessed and over-taxed, those foreclosures 
continued to happen. The funds in this bill can be used towards 
property tax relief. These funds could also go towards 
purchasing and redeveloping vacant and distressed properties, 
creating opportunities for affordable rental housing, 
homeownership, and shared equity homeownership as well.
    So, Ms. Waggoner, can you briefly describe how rehabbing 
existing housing stock in neglected communities can help 
stabilize neighborhoods and put our families on a path of home 
ownership?
    Ms. Waggoner. Thank you for that question. Yes, of course, 
we need to invest in the infrastructure we already have. It is 
hard, it is existing, and people live there, and as was shared 
earlier, 2 million Americans live in this type of housing 
stock. We need to invest in it and make sure it is healthy and 
clean and safe. We talked about such things as addressing lead-
based piping, paint, and other things. This is a critical thing 
that we must follow, we must do. We don't build housing not to 
invest in the upkeep of it. We must continue to do that while 
we are building more housing that people can afford.
    Ms. Tlaib. Thank you so much for Enterprise's support for 
restoring communities left behind, and thank you for your work 
in the Wayne County, Michigan, community. We sincerely 
appreciate it. I also invite my colleagues to please join me in 
co-sponsoring this vital legislation, and, again, thank you, 
Chairwoman Waters, for including it in today's hearing. Thank 
you, and I yield back.
    Mr. Green. The gentlelady yields back. I would like to, at 
this time, thank the witnesses for their testimony today.
    The Chair notes that some Members may have additional 
questions for this panel, which they may wish to submit in 
writing. Without objection, the hearing record will remain open 
for 5 legislative days for Members to submit written questions 
to these witnesses and to place their responses in the record. 
Also, without objection, Members will have 5 legislative days 
to submit extraneous materials to the Chair for inclusion in 
the record.
    This hearing is now adjourned. Thank you very much, 
everybody. Please have a great day.
    [Whereupon, at 3:08 p.m., the hearing was adjourned.]

                            A P P E N D I X


                             April 14, 2021
                             
[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]                             

                                  [all]
</pre></body></html>
